<html>
<title> - OUR WIRELESS FUTURE: BUILDING A COMPREHENSIVE APPROACH TO SPECTRUM POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  OUR WIRELESS FUTURE: BUILDING A COMPREHENSIVE APPROACH TO SPECTRUM 
                                 POLICY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                           Serial No. 116-54


      Printed for the use of the Committee on Energy and Commerce
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-711 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman
JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                               
                               
                               CONTENTS

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     4
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................    10

                               Witnesses

Julius P. Knapp, Chief, Office of Engineering and Technology, 
  Federal Communications Commission..............................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   196
Derek Khlopin, Senior Policy Advisor, National Telecommunications 
  and Information Administration, Department of Commerce.........    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................   200
Jeffrey S. Cohen, Chief Counsel and Director of Government 
  Relations, APCO International..................................    60
    Prepared statement...........................................    63
Michael Calabrese, Director, Wireless Future Project, Open 
  Technology Institute at New America............................    68
    Prepared statement...........................................    70
    Answers to submitted questions...............................   201
Mariel Triggs, Chief Executive Officer, MuralNet.................    84
    Prepared statement...........................................    86
Tim Donovan, Senior Vice President, Legislative Affairs, 
  Competitive Carriers Association...............................    97
    Prepared statement...........................................    99
Scott Bergmann, Senior Vice President, Regulatory Affairs, CTIA..   119
    Prepared statement...........................................   121
    Answers to submitted questions...............................   203
Peter Pitsch, Executive Vice President, Advocacy and Government 
  Relations, C-Band Alliance.....................................   135
    Prepared statement...........................................   137

                           Submitted Material

Letter of June 25, 2019, from Wilbur Ross, Secretary, Department 
  of Commerce, to Senator Ron Johnson, submitted by Mr. Doyle....   160
Article, ``Your 5G Phone Won't Hurt You. But Russia Wants You to 
  Think Otherwise,'' by William J. Broad, New York Times, May 12, 
  2019, submitted by Mr. Walden..................................   163
Letter of June 11, 2019, from Ajit V. Pai, Chairman, Federal 
  Communications Commission, to Hon. Marie Cantwell, Ranking 
  Member, Senate Committee on Commerce, Science, and 
  Transportation, submitted by Mr. Johnson.......................   172
Letter of June 21, 2019, from Steve B. Sharkey, Vice President, 
  Government Affairs, Technology and Engineering Policy, T-
  Mobile, to Marlene H. Dortch, Secretary, Federal Communications 
  Commission, submitted by Mr. Doyle \1\
Letter of June 16, 2019, from Shailen P. Bhatt, President and 
  Chief Executive Officer, Intelligent Transportation Society of 
  America, to Mr. Doyle and Mr. Latta, submitted by Mr. Doyle....   178
Report, ``Smarter and More Efficient: How America's Wireless 
  Industry Maximizes Its Spectrum,'' CTIA, submitted by Mr. Doyle   181
Statement of Joe Kane, Technology and Innovation Policy Fellow, R 
  Street Institute, July 16, 2019, submitted by Mr. Doyle \2\
Statement of the American Public Power Association, et al., July 
  16, 2019, submitted by Mr. Doyle...............................   192

----------

\1\ The letter and an accompanying 31-page report have been retained in 
committee files and also are available at https://docs.house.gov/
meetings/IF/IF16/20190716/109797/HHRG-116-IF16-20190716-SD006.pdf.
\2\ The R Street statement been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190716/109797/
HHRG-116-IF16-20190716-SD009.pdf.

 
  OUR WIRELESS FUTURE: BUILDING A COMPREHENSIVE APPROACH TO SPECTRUM 
                                 POLICY

                              ----------                              


                         TUESDAY, JULY 16, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:28 a.m., in 
room 2322, Rayburn House Office Building, Hon. Michael Doyle 
(chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, O'Halleran, Eshoo, Butterfield, Matsui, 
Welch, Lujan, Schrader, Cardenas, Dingell, Pallone (ex 
officio), Latta (subcommittee ranking member), Shimkus, Olson, 
Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, Walberg, 
Gianforte, and Walden (ex officio).
    Staff present: AJ Brown, Counsel; Jeffrey C. Carroll, Staff 
Director; Jennifer Epperson, FCC Detailee; Evan Gilbert, Deputy 
Press Secretary; Alex Hoehn-Saric, Chief Counsel, 
Communications and Consumer Protection; Jerry Leverich, Senior 
Counsel; Dan Miller, Policy Analyst; Meghan Mullon, Staff 
Assistant; Phil Murphy, Policy Coordinator; Joe Orlando, Staff 
Assistant; Alivia Roberts, Press Assistant; Tim Robinson, Chief 
Counsel; Rebecca Tomilchik, Staff Assistant; Mike Bloomquist, 
Minority Staff Director; S. K. Bowen, Minority Press Assistant; 
Michael Engel, Minority Detailee, Communications and 
Technology; Margaret Tucker Fogarty, Minority Staff Assistant; 
Tim Kurth, Minority Deputy Chief Counsel, Communications and 
Technology; and Brannon Rains, Minority Legislative Clerk.
    Mr. Doyle. The Subcommittee on Communications and 
Technology will now come to order.
    The Chair now recognizes himself for 5 minutes for an 
opening statement.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Good morning. I would like to welcome everyone to this 
subcommittee's first hearing on wireless spectrum policy. I 
would also like to thank our two panels of witnesses for 
appearing before us today to discuss these important issues.
    Wireless spectrum enables much of technology that powers 
our modern economy. From connecting/streaming Netflix over Wi-
Fi or listening to Spotify on your phone, these technologies 
rely on spectrum that has been carefully licensed and 
coordinated by the FCC. As we look to the future and the 
explosion of smart home devices, like digital assistants and 
connected appliances and smart city technologies, such as 
connected infrastructure and smart environmental sensors, it is 
clear that this is just the beginning.
    To meet the current demand and enable future needs, we need 
a national spectrum policy that incentives innovation and 
provides opportunities for new technologies and new entrants. 
The challenge we face today is just how constrained our 
spectrum resources are. While there are some greenfield 
spectrum opportunities, they are few and far between.
    The Federal Government is the largest holder of spectrum 
and, as such, much of the new spectrum being made available for 
commercial purposes is repurposed from Federal agencies. In the 
past, this process has worked well, with the NTIA coordinating 
Federal spectrum use and working with the FCC, impacted 
agencies, and stakeholders to transition spectrum to the 
private sector without impacting critical Federal users.
    I am very concerned that there has been a breakdown between 
the FCC, NTIA, and other Federal stakeholders. Over the last 
year and a half, several Federal agencies have expressed deep 
concerns about a number of FCC proceedings relating to spectrum 
policy, including the Department of Education, the Department 
of Transportation, the Defense Department, the Department of 
Commerce, and NOAA.
    You know it is a strange day when Democrats agree with 
Secretary DeVos about education policy, but many of us here are 
concerned that the FCC's recent order regarding the educational 
broadband service effectively stripped the education purpose 
and benefit from the band. It is also concerning that NOAA and 
the Department of Commerce continue to assert that the recently 
completed auction of 24 gigahertz band could have serious 
impact on NOAA's ability to forecast hurricanes.
    It makes a great deal of sense to look at bands and 
repurpose them as needed, but it is very concerning when 
Cabinet officials are publicly fighting with the FCC over 
spectrum policy. I am deeply concerned that this process has 
broken down and that the American people are going to be the 
ones that suffer. These challenges aren't new, and policymaker 
and stakeholders are in a constant struggle to enable spectrum 
to be shared more efficiently or to be transitioned to better 
uses.
    Today, Congress has an opportunity with the so-called C-
band, and I am happy to have several witnesses testifying on 
the second panel who can discuss this opportunity as well as 
the challenges in transitioning it. Through congressional 
action, I believe that this band can provide consumers, 
incumbent users, satellite operators, wireless companies, and 
new entrants an incredible opportunity.
    Congresswoman Matsui and I are working on a proposal to 
make a significant amount of mid-band spectrum available over 
the next 5 years and in a way that helps accelerate deployment 
of 5G. We also hope that a portion of the proceeds from this 
transaction can be used for the priorities that this committee 
has focused on for so long: rural broadband deployment, Next 
Generation 9-1-1, and closing the digital divide.
    We hope to work together with our friends, my ranking 
member, Mr. Latta, with ranking member of the full committee 
Mr. Walden and all our colleagues on the Republican side and 
the Senate to help facilitate that transition and ensure all 
Americans can benefit from the opportunities these new 
technologies offer.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared Statement of Hon. Mike Doyle

    Good morning, I'd like to welcome everyone to this 
subcommittee's first hearing on wireless spectrum policy. I'd 
also like to thank our two panels of witnesses for appearing 
before us today to discuss these important issues.
    Wireless spectrum enables much of technology that powers 
our modern economy. From connecting streaming Netflix over Wi-
Fi or listening to Spotify on your phone, these technologies 
rely on spectrum that has been carefully licensed and 
coordinated by the FCC. As we look to the future and the 
explosion of smart home devices, like digital assistants and 
connected appliances, and smart city technologies such as 
connected infrastructure and smart environmental sensors, it is 
clear, this is just the beginning.
    To meet current demand and enable future needs we need a 
national spectrum policy that incentivizes innovation and 
provides opportunities for new technologies and new entrants.
    The challenge we face today, is just how constrained our 
spectrum resources are. While there are some greenfield 
spectrum opportunities, they are few and far between.
    The Federal Government is the largest holder of spectrum, 
and as such, much of the new spectrum being made available for 
commercial purposes is repurposed from Federal agencies.
    In the past this process has worked well, with the NTIA 
coordinating Federal spectrum use and working with the FCC, 
impacted agencies, and stakeholders to transition spectrum to 
the private sector without impacting critical Federal users.
    I'm very concerned that there has been a breakdown between 
the FCC, NTIA and other Federal stakeholders. Over the last 
year and a half, several Federal agencies have expressed deep 
concerns about a number of FCC proceedings related to spectrum 
policy including the Department of Education, the Department of 
Transportation, the Defense Department, the Department of 
Commerce, and NOAA.
    It's a strange day when Democrats agree with Secretary 
Devos about education policy, but many of us are concerned that 
the FCC's recent order regarding the Educational Broadband 
Service effectively stripped the educational purpose and 
benefit from the band.
    It's also concerning that NOAA and the Department of 
Commerce continue to assert that the recently completed auction 
the 24 gigahertz band could have serious impacts on NOAA's 
ability to forecast hurricanes.
    It makes a great deal of sense to look at bands and to 
repurpose them as needed, but it's very concerning when Cabinet 
officials are publicly fighting with the FCC over spectrum 
policy. I'm deeply concerned that this process has broken down 
that the American people are going to be the ones that suffer.
    These challenges aren't new, and policymakers and 
stakeholders are in a constant struggle to enable spectrum to 
be shared more efficiently or to be transitioned to better 
uses.
    Today, Congress has an opportunity with the so called ``C-
band.'' I'm happy to have several witnesses testifying on the 
second panel who can discuss this opportunity as well the 
challenges in transitioning it. Through Congressional action, I 
believe that this band can provide consumers, incumbent users, 
satellite operators, wireless companies, and new entrants an 
incredible opportunity.
    Congresswoman Matsui and I are working on a proposal to 
make a significant amount of mid-band spectrum available over 
the next 5 years, and in a way that helps accelerate the 
deployment of 5G.
    We also hope that a portion of the proceeds of this 
transaction can be used for the priorities that this committee 
has focused on for so long, rural broadband deployment, Next 
Generation 9-1-1, and closing the digital divide.
    We hope to work together with Ranking Members Latta and 
Walden and our colleagues in the Senate to help facilitate this 
transition and ensure that all Americans can benefit from the 
opportunities these new technologies offer.
    I yield the balance of my time to the vice chair of the 
subcommittee and my good friend Doris Matsui.

    Mr. Doyle. I want to yield the balance of my time to the 
vice chair of the subcommittee and my good friend, Doris 
Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    As I said before in the FCC oversight hearing in May, the 
C-band has been one of the most complex and high-stakes 
proceedings in front of the Commission and Congress. And that 
is why I released the WIN 5G Act, to propose a compromise, 
consensus-based approach to rapidly reallocate the spectrum in 
a manner that addresses many of the concerns raised on the 
Commission's record.
    Of note, the WIN 5G Act solves the legal issues presented 
by an FCC action that would otherwise be hamstrung by the 
holdout problem and creates a funding opportunity for rural 
broadband deployment. I am pleased that it has the support of 
wireless, rural, and cable stakeholders, including many of 
those represented here today.
    I do look forward to working with the chairman, the members 
of this committee, and all interested parties to ensure C-band 
spectrum is reallocated quickly and equitably. We cannot afford 
to wait while this proceeding is tied up in court.
    Thank you, and I yield back.
    Mr. Doyle. I thank the gentlelady. The Chair now recognizes 
Mr. Latta, the ranking member of the subcommittee, for 5 
minutes for his opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, Mr. Chairman. And I appreciate 
the subcommittee holding this hearing today, and I thank both 
our panels of witnesses for testifying today, especially our 
government witnesses that are here on pretty short notice. But 
thanks very much for being here.
    I am pleased that this subcommittee is returning to the 
importance subject of spectrum policy. As the colead of both 
the Wi-Fi Caucus and the Rural Broadband Caucus, I know there 
is a careful balance we must achieve as we seek to clear more 
spectrum for our marketplace. Only through sound, transparent, 
light-touch policies formed through effective coordination 
between government, consumers, and industry stakeholders, we 
will guarantee U.S. leadership in the next generation of 
wireless connectivity.
    This approach to the deployment of 5G will ensure that all 
people in all sectors of our economy can benefit from its 
innovative ripple effect. We will cover a lot of territory 
today, but it is important that the testimonies be considered 
in totality, as we examine the implementation of key building 
blocks such as clearing spectrum for nationwide 5G deployment.
    The FCC has made a huge swath of mid-band spectrum 
available in the incentive auction and has also successfully 
auctioned off spectrum in the high band. I appreciate that the 
agency recognizes the importance of making America a leader in 
5G and continue to focus efforts on clearing additional bands.
    There is no doubt that 5G will benefit urban areas, but I 
am also excited how it remakes internet traffic management to 
prioritize low-band and mid-band spectrum for our rural areas. 
In cities, the dense, high-speed networks provided over 
millimeter wave spectrum will unleash unlimited possibilities 
for the Internet of Things. Therefore, we must not undervalue 
the benefit of high-band spectrum, as its quick deployment will 
make such IoT synergies possible as we add capacity. 5G will 
truly be disruptive in every sector from new technologies and 
innovations to an expanded workforce.
    We must also discuss other technologies that play a 
critical role in connecting Americans and supporting 5G, such 
as Wi-Fi. Wi-Fi is convenient deployment that all people 
enjoyed and was meant to simply offer a no-wire solution. 
Certainly, its impact has been underestimated. We live in an 
increasingly connected world, from streaming live TV from a 
handheld device to smart thermostats, to self-driving cars. 
Given the integration of Wi-Fi into our daily lives, I am 
intrigued by the FCC's recent proposal to expand unlicensed use 
in the 6 gigahertz band. Doing so would enable Wi-Fi to provide 
affordable connectivity across the country, assuming such uses 
would not come at the detriment of another user.
    Just as 5G and Wi-Fi are essential components to our 
telecommunications landscape, so is wireless broadband. Closing 
the digital divide is one of my top priorities, and the 
wireless broadband is part of the solution. Spectrum can help 
students complete their homework, hospitals perform offsite 
tests and patient checkups, and farmers operate precision 
agricultural equipment. In my district, I have witnessed 
firsthand the incredible value wireless technologies have on 
precision agriculture, such as drones and self-driving tractors 
that assist farmers with monitoring crops and livestock and 
analyzing soil.
    Access to broadband should not be dependent on one 
technology, and spectrum allows for another avenue of delivery. 
Spectrum is a valuable, yet limited, resource that benefits 
consumers in so many ways. That is why we must have balanced 
policies that efficiently utilize bands, encourage innovations, 
and effectively address our Nation's needs.
    I will look forward to working with the chairman and the 
members of the subcommittee as we continue our pursuit to reach 
such policy solutions and to keep America ahead of the 
international competition and win the 5G race.
    Again, I want to thank the witnesses for being with us 
today.
    And, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Thank you, Mr. Chairman. I appreciate the subcommittee 
holding this hearing today and I thank both panels of witnesses 
for testifying, especially our Government witnesses that are 
appearing on short notice.
    I am pleased this subcommittee is returning to the 
important subject of spectrum policy. As the colead to both the 
Wi-Fi Caucus and the Rural Broadband Caucus, I know there is a 
careful balance we must achieve as we seek to clear more 
spectrum for the marketplace. Only through sound transparent 
light-touch policies, formed through effective coordination 
between government, consumers, and industry stakeholders, will 
we guarantee U.S. leadership in Next Generation wireless 
connectivity. This approach to the deployment of 5G will ensure 
that all people and all sectors of our economy can benefit from 
its innovative ripple effect. We will cover a lot of territory 
today, but it's important that the testimonies be considered in 
totality as we examine the implementation of key building 
blocks, such as clearing spectrum, for nationwide 5G 
deployment.
    The FCC has made a huge swath of mid-band spectrum 
available in the incentive auction and has also successfully 
auctioned off spectrum in the high-band. I appreciate that the 
agency recognizes the importance of making America a leader in 
5G and continue to focus efforts on clearing additional bands. 
There is no doubt that 5G will benefit urban areas, but I am 
also excited how it remakes internet traffic management to 
prioritize low-band and mid-band spectrum for rural areas. In 
cities, the dense, high-speed networks provided over millimeter 
wave spectrum will unleash unlimited possibilities through the 
Internet of Things. Therefore, we must not undervalue the 
benefit of high-band spectrum as its quick deployment will make 
such IoT synergies possible as we add capacity. 5G will truly 
be disruptive in every sector from new technologies and 
innovations to an expanded workforce.
    We must also discuss other technologies that play a 
critical role in connecting Americans and supporting 5G, such 
as Wi-Fi. Wi-Fi is a convenient development that all people 
enjoy and was meant to simply offer a no-wire solution. 
Certainly, its impact has been underestimated as we live in an 
increasingly connected world from streaming live TV from a 
hand-held device to smart thermostats to self-driving cars. 
Given the integration of Wi-Fi into our daily lives, I am 
intrigued by the FCC's recent proposal to expand unlicensed use 
in the 6 gigahertz band. Doing so would enable Wi-Fi to provide 
affordable connectivity across the country, assuming such uses 
would not come at the detriment of another user.
    Just as 5G and Wi-Fi are essential components to our 
telecommunications landscape, so is wireless broadband. Closing 
the digital divide is one of my top priorities, and wireless 
broadband is part of the solution. Spectrum can help students 
complete their homework, hospitals perform off-site tests and 
patient check-ups, and farmers operate precision agriculture 
equipment. In my district, I've witnessed first-hand the 
incredible value wireless technologies have on precision 
agriculture--such as drones and self-driving tractors that 
assist farmers with monitoring crops and livestock and 
analyzing soil. Access to broadband should not be dependent on 
one technology and spectrum allows for another avenue of 
delivery.
    Spectrum is a valuable, yet limited resource that benefits 
consumers in so many ways. That is why we must have balanced 
policies that efficiently utilize bands, encourage innovation, 
and effectively address our Nation's needs. I look forward to 
working with the chairman and the members of the subcommittee 
as we continue our pursuit to reach such policy solutions, and 
to keep America ahead of the international competition to win 
the race to 5G. Thank you again to our witnesses and I yield 
back.

    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Pallone, the chairman of the full committee, for 
5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    The topic of today's hearing is important because, in the 
same way that we manage our water, our air, and our other 
natural resources, we must manage our airwaves. And that means 
carefully and deliberately allocating spectrum for the benefit 
of consumers, whether they live in a dense, urban metropolis or 
in remote rural areas.
    If we manage our airwaves correctly, new wireless 
technologies, including 5G, promise to meaningfully improve the 
lives of Americans, and educational institutions, like Rutgers 
in my home State, will be able to provide greater access to 
their world-class education. Telehealth services will be able 
to better bring medical care to those in need over vast 
distances to keep us healthier, and small businesses will be 
given tools to help them better compete with big corporations.
    So smart spectrum management is also critical for public 
safety. In the face of increasingly frequent natural disasters, 
new 5G technologies could help first responders better locate 
us when we call 9-1-1 or help spread the word during an 
impending natural disaster, so that we can prepare. And these 
examples just scratch the surface of why it is so important 
that we work together on a comprehensive spectrum policy.
    Unfortunately, despite the hard work of incredibly skilled 
career civil servants like those testifying before us today, I 
am increasingly concerned that this administration is not up to 
the task. It seems that, as a nation, we are somehow unable to 
cobble together a coherent policy for managing our airwaves. 
Right now, there is a leadership vacuum, and I am concerned 
that too few people in our government understand that our 
agencies' spectrum needs must be coordinated and the Government 
must speak with one voice.
    A few years ago, Congress, the FCC, and the NTIA were 
working hard to keep the mobile economy moving forward, but 
that is not the case anymore. Today, the Trump FCC goes one 
way, the Commerce Department and NTIA go another. Then, you 
have other departments throughout the Federal Government, like 
the Departments of Transportation, Education, and Defense, 
voicing their own opinions about how spectrum should be used. 
And this lack of coordination affects a mind-numbing list of 
important bands of spectrum. In my opinion, the process has 
completely broken down.
    So, to be clear, this reality does not reflect the system 
that Congress created and that this committee has relied on for 
years. Under the law, Congress charged the FCC with managing 
commercial uses of spectrum while we charged the NTIA with 
managing Federal spectrum use. And up until now, that meant we 
had two agencies working together on relevant policy, but not 
anymore, unfortunately. I don't think it has to be this way. 
Spectrum is at its heart a bipartisan issue. It is a rural and 
an urban issue. And it is not all bad news. The FCC is still 
conducting auctions and working towards making more unlicensed 
spectrum and shared-use spectrum available.
    And I also have tremendous confidence in the bipartisan 
leadership of this committee--of this subcommittee, I should 
say. Mr. Doyle, in the past, we have worked successfully on 
spectrum policy and passed laws such as the RAY BAUM'S Act, the 
Spectrum Pipeline Act, and the 2012 Spectrum Act. So, I look 
forward to working with my colleagues to find a consensus 
approach--you are known for that--to fill this void left by 
this administration and resolve the pressing spectrum issues 
before us, including the disposition of the C-band, and how we 
resolve that, being it is incredibly important, and troubling 
questions remain about the ongoing process at the FCC.
    So, it is clear that Congress has to legislate to resolve 
these concerns and provide the greatest benefits to consumers 
with a transparent process that generates revenue for the 
Treasury. And I know we are up to that, and hopefully, that is 
what we will achieve after this hearing over the next few 
months.
    So, thank you again, Chairman Doyle.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    The topic of today's hearing is important, because in the 
same way that we manage our water, our air, and other natural 
resources, we must manage our airwaves. That means carefully 
and deliberately allocating spectrum for the benefit of 
consumers, whether they live in a dense urban metropolis or in 
remote rural areas.
    If we manage our airwaves correctly, new wireless 
technologies, including 5G, promise to meaningfully improve the 
lives of Americans. Educational institutions like Rutgers in my 
district will be able to provide greater access to their world-
class education. Telehealth services will be able to better 
bring medical care to those in need over vast distances to keep 
us healthier. And small businesses will be given tools to help 
them better compete with big corporations.
    Smart spectrum management is also critical for public 
safety. In the face of increasingly frequent natural disasters, 
new 5G technologies could help first responders better locate 
us when we call 9-1-1 or help spread the word during an 
impending natural disaster so that we can prepare.
    These examples just scratch the surface of why it is so 
important that we work together on a comprehensive spectrum 
policy.
    Unfortunately, despite the hard work of incredibly skilled 
career civil servants like those testifying before us today, 
I'm increasingly concerned that this administration is not up 
to the task. It seems that, as a nation, we are somehow unable 
to cobble together a coherent policy for managing our airwaves. 
Right now there is a leadership vacuum. And I'm concerned that 
too few people in our government understand that our agencies' 
spectrum needs must be coordinated, and the Government must 
speak with one voice.
    A few years ago, Congress, the FCC, and the NTIA were 
working hard to keep the mobile economy moving forward. That's 
not the case anymore. Today, the Trump FCC goes one way, the 
Commerce Department and NTIA go another. Then you have other 
departments throughout the Federal Government, like the 
Departments of Transportation, Education and Defense voicing 
their own opinions about how spectrum should be used. This lack 
of coordination affects a mind-numbing list of important bands 
of spectrum. In my opinion, the process has completely broken 
down.
    To be clear this reality does not reflect the system that 
Congress created and that this committee has relied on for 
years. Under the law, Congress charged the FCC with managing 
commercial uses of spectrum while we charged the NTIA with 
managing Federal spectrum use. And up until now, that meant we 
had two agencies working together on relevant policy, but not 
anymore.
    It doesn't have to be this way. Spectrum is, at its heart, 
a bipartisan issue. It's a rural issue and an urban issue. And 
it's not all bad news. The FCC is still conducting auctions and 
working toward making more unlicensed spectrum and shared-use 
spectrum available.
    I also have tremendous confidence in the bipartisan 
leadership of this subcommittee. In the past, we've worked 
successfully on spectrum policy and passed laws such as the 
RAYBAUM'S Act, the Spectrum Pipeline Act, and the 2012 Spectrum 
Act.
    I look forward to working with my colleagues to find a 
consensus approach to fill the void left by this administration 
and resolve the pressing spectrum issues before us, including 
the disposition of the C-band. How we resolve that band is 
incredibly important and troubling questions remain about the 
ongoing process at the FCC.
    It's clear that Congress must legislate to resolves these 
concerns and provide the greatest benefit to consumers, with a 
transparent process that generates revenue for the Treasury.

    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes the ranking member of the full committee, my friend 
Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    And I just want to say at the head-in to the comments by my 
friend from New Jersey, the conflict going on in the 
administration right now on this matter is a bit troubling. We 
all know we had a good NTIA Director in place and things were 
going swimmingly, and then, they weren't. And I will express my 
dissatisfaction with what is happening as well out of Commerce 
and elsewhere.
    I want to welcome our witnesses to this hearing on 
spectrum. Almost 2 years ago, we held a hearing on the so-
called race to 5G, and as I said then, it is a sprint, not a 
marathon. Some may be concerned about overhyping the situation 
such competitive technology may have, but I believe it is even 
more disconcerting if we undersell the importance of this.
    As we speak, competitors in Asia and Europe are running 
full speed ahead to be the global leader. Maybe we need an even 
more dramatic term to convey the immediacy of the situation. 
Our success in the 5G race will revolutionize American 
competitiveness and further strengthen our position in the 
global economy. This is really important stuff.
    As you all know, I grew up in the radio business. Probably 
the only member of this committee that has--I know maybe Billy 
Long has--wired in a transmitter or two.
    [Laughter.]
    But a lot has changed since the '96 Telecom Act--he always 
got higher ratings than I think I ever got on air, but I had 
the face for radio--which focused primarily on how local long-
distance rates could be more competitive. But, ultimately, the 
'96 Act instilled the light-touch regulatory regime that 
provided the building blocks to the internet infrastructure we 
have come to know and depend on.
    Similarly, the 5G revolution will deliver on priorities 
that this committee, and I think our country, share. From 
closing the digital divide, making cities smarter, improving 
the grid, these consumer benefits will mean faster and more 
advanced services with billions of devices expected to come 
online as part of the Internet of Things.
    So we have to be strategic in how we do this. We have to be 
smart and unified in how we do this. Spectrum availability, 
infrastructure deployment, risks to our supply chain, all these 
need to be worked out together. If we fall behind on any one 
aspect, it will be a detriment to our future. If you think that 
sounds too dramatic, let me suggest our adversaries are very 
focused. They know what needs to happen here.
    The potential threats represented by equipment from 
suspected entities, it has been well publicized. So I won't 
spend a lot of time on that. But I would reference the New York 
Times story on Russian propaganda efforts in this space. The 
story is headlined ``Your 5G Phone Won't Hurt You. But Russia 
Wants You to Think Otherwise.'' It is a review of a media 
outlet known as RT America running stories of health risks of 
5G deployment. RT America, of course, is a division of Russia 
Today, which has been referred to as, quote, ``the Kremlin's 
principal international propaganda outlet''--close quote--by 
the Office of the Director of National Intelligence.
    We certainly should not dismiss whether there are health 
concerns. We need to make sure there are not. So I will look 
forward to hearing from our expert witnesses on this panel.
    However, I must say, when a Russian outlet is reporting on 
this, and at the same time Russia is pushing ahead with their 
own 5G efforts, maybe there is something else going on here.
    Moving forward to become the world's leader in 5G 
deployment means we have got to make some tough decisions. The 
5G marketplace requires more spectrum, and it does so as 
quickly as possible. So, we need to carefully balance this 
demand with our responsibility to consider the effects on 
incumbent spectrum users and the value they provide to American 
consumers.
    Look, we have done this before multiple times--with 
agencies, with the private sector--to free up spectrum and 
benefit consumers. So, with your help today, we will continue 
down this path. And then, my constituents and those across the 
country can eventually enjoy the 5G revolution, greater 
connectivity, and a more dynamic economy.
    With that, Mr. Chairman, unless anybody on our side wants 
the remaining minute, I will yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Mr. Chairman.
    I want to welcome our witnesses to this hearing on 
spectrum. Almost two years ago, we held a hearing on the so-
called Race to 5G, and as I said at the hearing--this is a 
sprint, not a marathon. Some may be concerned about overhyping 
the situation using such competitive terminology, but I believe 
it's even more disconcerting if we undersell. Even as we speak, 
competitors in Asia and Europe are running full speed ahead to 
be the global leader. Maybe we need an even more dramatic term 
to convey the immediacy of the situation, and how our success 
in the 5G race will revolutionize American competitiveness and 
further strengthen our position in the global economy.
    As you all know, my background is in radio. My wife and I 
owned and operated our own radio station in Oregon for many 
years. I'm pretty sure I'm the only Member of Congress who has 
ever had to wire in a transmitter! But it has been remarkable 
to witness the acceleration of change and advancement in 
technology in recent years. For example, think back to the 1996 
Telecommunications Act, which focused primarily on how local 
and long-distance rates could become more competitive. But 
ultimately, this bill instilled the light-touch regulatory 
regime that provided the building blocks to the internet 
infrastructure we have come to know and depend on. Similarly, 
the 5G revolution will deliver on priorities for this 
committee--from closing the digital divide, making cities 
smarter, to improving our grid, consumer benefits such as 
faster and more advanced devices and the Internet of Things, 
improved industrial manufacturing, improved health care 
outcomes, and of course the future of transportation--to things 
we can't fully conceptualize today.
    We need to be thinking strategically about spectrum 
availability, infrastructure deployment, and risks to our 
supply chain as all of these pieces need to work together in 
unison for our success in 5G.
    If we fall behind on any one aspect, it will be a detriment 
to our future. If you think that sounds too dramatic, our 
adversaries certainly understand this fact. The potential 
threats represented by equipment from suspect entities has been 
well publicized, so I will not eat up a lot of discussion here 
on that issue, which will be better addressed at a hearing on 
supply chain we will hopefully have here soon. I'm referring to 
the recent report by The New York Times on Russian propaganda 
efforts. The story, ``Your 5G Phone Won't Hurt You. But Russia 
Wants You to Think Otherwise,'' is a review of a media outlet 
known as RT America running stories of health risks of 5G 
deployment. RT America of course is a division of Russia Today, 
which has been referred to as ``the Kremlin's principal 
international propaganda outlet'' by the Office of the Director 
of National Intelligence. We certainly shouldn't dismiss 
whether there is a health concern, so I will look forward to 
hearing from the expert panel. However, I must say when a 
Russian outlet is reporting on this and at the same time Russia 
is pushing ahead with their 5G efforts, we should take that 
into account in considering the stakes.
    Moving forward, to become the world's leader in 5G 
deployment brings tough decisions. The 5G marketplace requires 
more spectrum as quickly as possible. We must also carefully 
balance this demand with our responsibility to consider the 
effects on incumbent spectrum users, and the value they provide 
to the American consumer. Today's witnesses can help us refine 
this equation, and I look forward to hearing how all Americans, 
particularly those in rural areas like Oregon, can receive the 
full benefits of the 5G revolution.
    Remembering back to our previous efforts, it will take this 
committee exercising its expertise on this sector, working in a 
bipartisan manner, and finding the right recipe needed on 
regulatory reforms and international harmonization to make this 
technology a reality.
    Thank you, and I yield back.

    Mr. Doyle. The gentleman yields back.
    And I would say to the gentleman, we look forward to 
working with you on this in a bipartisan fashion to get it 
done.
    OK. I would now like to introduce our first panel of 
witnesses today: the Honorable Julius P. Knapp, Chief of the 
Office of Engineering and Technology at the Federal 
Communications Commission, and the Honorable Derek Khlopin, 
Senior Policy Advisor at the National Telecommunications and 
Information Administration.
    We want to thank you both for joining us today. We look 
forward to your testimony.
    At this time, the Chair will now recognize each witness for 
5 minutes to provide their opening statement.
    Before we begin, I would like to explain our lighting 
system. In front of you is a series of lights. The light will 
initially be green at the start of your opening statement. It 
will turn yellow when you have 1 minute remaining. Please begin 
to wrap up your testimony at that point. The light will turn 
red when your time expires.
    Mr. Knapp, you are now recognized for 5 minutes.

STATEMENTS OF JULIUS P. KNAPP, CHIEF, OFFICE OF ENGINEERING AND 
   TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION, AND DEREK 
KHLOPIN, SENIOR POLICY ADVISOR, NATIONAL TELECOMMUNICATIONS AND 
       INFORMATION ADMINISTRATION, DEPARTMENT OF COMMERCE

                  STATEMENT OF JULIUS P. KNAPP

    Mr. Knapp. Chairman Doyle, Ranking Member Latta, and 
members of the subcommittee, thank you for holding this 
hearing. I appreciate the opportunity to provide you with an 
update on the FCC's activities on spectrum.
    Spectrum management is woven into the fabric of the FCC 
across all of our bureaus and offices. And I have the privilege 
of leading our Office of Engineering and Technology, where I 
have served as an engineer for, I shudder to admit, 45 years 
now. My office works closely with the other FCC bureaus and 
offices to ensure our recommendations to the Chairman and 
Commissioners on spectrum matters are based on sound 
engineering and efficient use of the airwaves.
    The Commission is hard at work implementing a balanced 
spectrum policy that is responsive to the many demands for 
spectrum, including 5G, new satellite services, unlicensed 
advanced spectrum sharing, rural use, and so forth. And I would 
like to highlight some of the things we have been working on.
    A top priority for the Commission is to ensure the U.S. 
maintains and advances its leadership in 5G, the next 
generation of wireless technology. To realize this potential, 
Chairman Pai developed and we are executing the 5G FAST Plan, a 
comprehensive strategy that will facilitate America's 
superiority in 5G technology. And it consists of three central 
components: freeing up more spectrum, promoting wireless 
infrastructure deployment, and modernizing our regulations to 
promote more fiber deployment. And I would like to just focus 
on the spectrum aspects.
    So 5G networks are going to be woven together with a 
combination of low-, mid-, and high-band spectrum. The low-band 
spectrum is important for coverage, particularly in the rural 
areas. The mid-band spectrum provides a great mix of coverage 
and capacity, and the high-band spectrum provides much greater 
capacity and delivers fastest speeds, and it is well-suited for 
urban areas.
    On the low-band spectrum, the Commission conducted a 
successful broadcast incentive auction that yielded 84 
megahertz of spectrum for wireless broadband services. The 
Commission is also taking several actions to make mid-band 
spectrum available for 5G. Last week, for example, the 
Commission revised its rules for the 2.5 gigahertz band to make 
this valuable spectrum available for 5G, much of which 
currently lies fallow in rural areas.
    This is going to be accomplished by allowing incumbents 
greater flexibility in their use of spectrum, providing a 
priority window for Tribal nations to obtain unassigned 
spectrum, and introducing a spectrum auction that will ensure 
that this public resource is devoted to its highest-valued use. 
We are anticipating holding the spectrum auction next year.
    The Commission also made available 150 megahertz of 
spectrum in the 3.5 gigahertz band, which is known as the 
Citizens Broadband Radio Service. We are well along in that 
process, and it is our hope that very soon we will be able to 
approve initial commercial deployments in that spectrum.
    We have also moved ahead with a rulemaking on what is 
called C-band, the 3.7 to 4.2 gigahertz band, and to make part 
or all of that spectrum available for flexible use. And the 
Commission is considering a number of proposals for how we 
might go about repurposing that spectrum, including through 
market mechanisms and auctions. It is a very complicated 
proceeding, and the Chairman has indicated that we will have 
results to show on this front this fall.
    Turning to high-band spectrum, we have had successful 
auctions of 24 and 28 gigahertz. And let me just turn, in the 
interest of time, as well to unlicensed, which is also a very 
important part of our strategy. We recently modified our rules 
for the TV white spaces to make them more amenable for 
deployment. Last year, we proposed to open up as much as 1200 
megahertz of spectrum in the 6 gigahertz region for unlicensed 
use, while protecting the incumbent uses, and we are hard at 
work on that proceeding as well. And we have also been looking 
at proceeding at 5.9 gigahertz for unlicensed sharing with 
Intelligent Transportation Services.
    The Commission is also taking a number of actions in the 
areas of advanced spectrum sharing, support for space services 
in preparation for the upcoming World Radio Conference. And in 
the interest of time, I would refer you to my written 
testimony.
    Lastly, I want to recognize the outstanding staff of the 
FCC who day in and day out dedicate themselves to finding 
solutions to these very difficult problems.
    Thank you for your time.
    [The prepared statement of Mr. Knapp follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Knapp.
    Mr. Khlopin, you are now recognized for 5 minutes.

                   STATEMENT OF DEREK KHLOPIN

    Mr. Khlopin. Mr. Chairman, Ranking Member, and members of 
the subcommittee, thank you for the opportunity to testify 
today on NTIA's activities regarding spectrum management and 
spectrum policy.
    Radio frequency spectrum is a finite resource. Yet, demand 
for it only continues to grow on an increasingly larger scale, 
but with shorter expected timelines. This is in large part 
because so many of our national priorities come with spectrum 
requirements, including U.S. leadership in 5G wireless, space 
exploration and commerce, artificial intelligence, autonomous 
vehicles, and other emerging technologies. It is also 
fundamental to maintaining our global military superiority, 
protecting the safety of our national airspace, and forecasting 
the all-too-frequent weather events that devastate our 
communities.
    Our spectrum management and policy decisions must take into 
account and balance all of these and other important interests. 
It is a difficult task, but we have no choice but to succeed. 
NTIA sits right in the middle of this important decisionmaking 
process.
    NTIA manages use of spectrum by the U.S. Government, 
accommodating the diverse and compelling spectrum requirements 
of Federal programs while at the same time seeking 
opportunities to expand spectrum access for private-sector and 
other non-Federal Government spectrum users.
    President Trump has declared the U.S. must win the race to 
5G. 5G connectivity is expected to become essential to the 
American economy, to national security, and to our continued 
leadership in the information age. Some estimates have 5G 
creating up to 3 million new American jobs and generating $500 
billion a year in economic growth. The figures are stunning, 
and they help demonstrate why we must accelerate and succeed in 
5G.
    These networks also must be the most secure and reliable in 
the world. We will continue to create the conditions for 5G to 
prosper in the U.S. NTIA and the Department of Commerce are 
taking numerous actions to ensure U.S. 5G leadership. These 
include efforts to secure 5G equipment and supply chains in the 
country, to engage with our allies around the world on these 
concerns, to support U.S. industry in global standards 
development, and to conduct and coordinate targeted research 
activities. But my focus today is on our efforts to identify 
spectrum bands that can support 5G.
    NTIA continues to work with the FCC, with the support and 
direction of Congress, to significantly increase commercial 
access to scores of frequencies across low-, mid-, and high-
frequency bands. The efforts to date have been very successful. 
The U.S. currently leads the world in spectrum made available 
for mobile wireless services with almost 6 gigahertz for 
licensed exclusive use, and the more than 3 gigahertz of 
additional spectrum is under active study. So, we could be at 9 
gigahertz soon for commercial use. And this does not include 
spectrum for unlicensed and satellite uses that will also have 
a role in 5G connectivity.
    So it is very exciting, but we are very well aware that we 
have more work to do, especially with respect to the mid-band 
spectrum that industry is coveting. NTIA continues to make 
progress on this front. We are excited for the approaching 
launch of the Citizens Broadband Radio Service, or CBRS, in the 
dynamically shared Federal and non-Federal 3.5 band. It has 
been a great example of interagency cooperation.
    NTIA and its research arm, the Institute for 
Telecommunication Sciences, has worked closely with the FCC, 
the Department of Defense, and industry to enable the 
innovative sharing framework. In addition, NTIA and the DoD are 
studying the feasibility of shared access by commercial systems 
to neighboring frequencies at 3450 to 3450 megahertz. In 
combination with other FCC proceedings addressing mid-band, the 
U.S. is well positioned to ensure such highly sought-after 
frequencies are available for 5G and other services.
    NTIA and the Department are also very busy evaluating how 
current and future spectrum allocations will help drive a 
trillion-dollar space economy. At the direction of the 
President, in 2018 the Department through NTIA issued a report 
providing recommendations to improve the global competitiveness 
of the U.S. space sector through spectrum policies.
    NTIA also works to advance U.S. spectrum interests 
globally, and this includes representing the Federal 
Government's interests at the ITU's World Radio Conference, 
which will occur this fall in October in Egypt.
    Finally, last October, President Trump issued a 
Presidential Memorandum titled, ``Developing a Sustainable 
Spectrum Strategy for America's Future''. In the PM, the 
President directed Secretary Wilbur Ross, working through NTIA, 
to develop and implement a comprehensive, balanced, and 
forward-looking National Spectrum Strategy to more effectively 
manage our Nation's use of this critical resource. The 
Department is on track to submit the strategy to the President 
in the coming weeks.
    In conclusion, NTIA, on behalf of the administration, takes 
a comprehensive approach to our spectrum management and policy 
responsibilities. In this way, we ensure the U.S. effectively 
and efficiently is putting spectrum to use in ways that drive 
our national economic activity and help protect the safety and 
security of all Americans.
    Thank you.
    [The prepared statement of Mr. Khlopin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. I thank the witnesses.
    We have now concluded our openings. We are going to move to 
Member questions. Each Member will have 5 minutes to ask 
questions of our witnesses. And I will start by recognizing 
myself for 5 minutes.
    There has been a lot of concern and confusion regarding the 
24 gigahertz band and the level of interference protection 
necessary to protect other Federal incumbent users. Among these 
users is NOAA, who have claimed that the deployment of 5G in 
this band could prevent their weather satellites from 
accurately predicting hurricanes and other major weather 
events.
    Mr. Knapp, my understanding is that NOAA and NASA have 
submitted a technical report to the FCC that describes their 
concerns related to interference in the 24 gigahertz band based 
on updated assumptions related to the propagation of 5G 
signals. Has that report been made public or shared with 
industry stakeholders? And if not, when do you expect it to be?
    Mr. Knapp. The report has not been made public, and it is 
not our report. So, that would be up to NOAA and NASA.
    Mr. Doyle. To make it public?
    Mr. Knapp. Yes.
    Mr. Doyle. Thank you.
    To both of you, I am concerned that the United States is 
going into the World Radio Conference, where an international 
interference protection level will be set in this band, and we 
don't have a cohesive position. What is the interference level 
that your respective agencies believe is appropriate?
    Mr. Knapp. So I think the answer is we believe both of 
these can live together. They are in separate bands. The 
passive satellite band is below 24 gigahertz; the 5G band is 
separated by a considerable amount. The Commission adopted a 
protection standard that would prevent the interference. That 
is why I was hesitating in answer, because we don't look at it 
as what is an acceptable level of interference as a standard 
that will protect it. And the debate is over what is the 
appropriate level, and there are still discussions going on.
    Mr. Doyle. Mr. Khlopin?
    Mr. Khlopin. So, NTIA's role in this process, as you are 
aware, is to represent the Federal interest. Some of these 
specific questions are best answered by NOAA and NASA that 
performed the study. But, as you indicated, they do have a 
study available out that they put together that is working 
through the deliberative process to come to a final number.
    Mr. Doyle. I saw Secretary Ross recently responded to a 
letter from Senator Johnson related to the 24 gigahertz band. 
In that letter, which I will submit for the record, Secretary 
Ross says that an interagency working group had recently 
reached a compromise on the interference protection levels in 
that band. Can you tell the committee what that compromise is?
    [The information appears at the conclusion of the hearing.]
    Mr. Knapp. From our point of view, there has not been a 
compromise. There are still discussions on the levels.
    Mr. Doyle. So you are saying Secretary Ross said a 
compromise has been reached, and you are saying that hasn't 
occurred?
    Mr. Knapp. From the perspective of the FCC, we have not 
reached a compromise.
    Mr. Doyle. When do you think we are going to reach a 
compromise?
    Mr. Knapp. Well, clearly, we have to have a position before 
we go into the CTeL meetings that are coming up in August. And 
everybody is working hard to make sure that we get to that 
point.
    Mr. Doyle. Well, I would agree with that.
    Mr. Knapp, let me ask you, do you believe the spectrum-
sharing model adopted in the CBRS band could be adopted in 
other bands? Specifically, do you think that using a spectrum 
access system could make other encumbered bands accessible on a 
shared basis while still protecting incumbent users?
    Mr. Knapp. So, the short answer is I think dynamic spectrum 
access is a tool that can provide access to other spectrum 
bands. I wouldn't look at it as a one-size-fits-all. There are 
some complexities about the CBRS sharing approach that might 
not be necessary in other bands. But the model I think is one 
that we can look at in other bands.
    Mr. Doyle. And, Mr. Khlopin, I wanted to ask you, too, 
about this Secretary Ross letter. Is it your understanding that 
a compromise has been reached, or do you agree with Mr. Knapp 
that that hasn't been done?
    Mr. Khlopin. So I am certainly not in a position to put 
words in the Secretary's mouth or speak for him. I think it was 
his understanding that conversations that were had were leading 
toward that agreement, but, as Mr. Knapp said, those 
discussions continue. So, right now, that process is still 
underway.
    Mr. Doyle. So why would the Secretary tell Senator Johnson 
that a compromise had been reached?
    Mr. Khlopin. Because, again, I think that was his 
understanding at the time.
    Mr. Doyle. Who gave him that understanding?
    Mr. Khlopin. That is a part of a larger meeting. Again, I 
can't speak for the Secretary. I was not in that meeting.
    Mr. Doyle. I see.
    I will yield back my time. I am going to now recognize the 
ranking member of the subcommittee, Mr. Latta, for his 
questions.
    Mr. Latta. Well, thanks, Mr. Chairman.
    And again, thanks to our witnesses for being with us today.
    As the cochair of the Wi-Fi Caucus, I spend a great deal of 
time focused on the undeniable benefits of Wi-Fi to American 
innovation and economic growth. One of the critical inputs, as 
consumers engage with spectrum-intensive applications, is more 
spectrum dedicated to unlicensed use.
    Mr. Knapp, would you describe the Commission's efforts on 
this front and the potential candidates as we look for spectrum 
bands that are most able to be quickly repurposed and deployed?
    Mr. Knapp. Yes. And I think a common theme as we go through 
today's hearing is that none of these are easy. So, as I 
mentioned, unlicensed is critically important. I think there is 
real synergy between both licensed and unlicensed.
    So, right now, we are concentrating on the spectrum around 
5 gigahertz that is used by Wi-Fi today and trying to expand 
that. We have the proceeding that we are looking at at 5.9 
gigahertz and whether we can share with transportation. We 
opened up this proceeding at 6 gigahertz, which is 1200 
megahertz of spectrum, that could be made available that would 
be well-suited for Wi-Fi. We need to protect the incumbents 
there. They are a lot of microwave services used by public 
safety, the utilities, backhaul. And we are working hard at 
that. We are optimistic that we are going to be able to get to 
a positive outcome.
    Mr. Latta. OK. Well, thank you.
    Mr. Khlopin, you discussed in your testimony the National 
Spectrum Strategy, and I appreciate the presence and leadership 
on the topic. Specifically, you discussed spectrum-sharing 
tools. The International Telecommunications Union has adopted 
NTIA's software as the global standard to optimize radio-
frequency spectrum sharing between air and ground systems. 
Would you share with us about this software and what this will 
do to advance the 5G development?
    Mr. Khlopin. Sure, and thank you very much for the 
question.
     The software you are referring to is a software 
propagation modeling tool developed by NTIA's ITS, Institute 
for Telecommunication Sciences, in Boulder, Colorado, which, as 
you indicated, the ITU has officially adopted. What this allows 
is to take the propagation, meaning how far a signal travels, 
and specifically, this software tool was for working with 
ground-based systems and air systems and how they interact and 
share spectrum.
    The benefits here, it was used when we were looking at the 
AWS-3 spectrum made available several years ago and how those 
systems would work together. And right now, it is being used by 
NTIA's Office of Spectrum Management, and the Department of 
Defense as well, to look at 3450-3550 megahertz, key mid-band 
spectrum that we have talked about. It could be made available 
for 5G. So it has a direct impact on trying to advance 
spectrum-sharing. ITS has a long history of leadership there.
    It also ties into our National Spectrum Strategy, as we 
look for tools that we can collaboratively use across both 
spectrum managers and spectrum regulators, spectrum users, to 
more efficiently, effectively, and quickly do this analysis, so 
we can get spectrum put to better use.
    Mr. Latta. Thank you.
    Mr. Knapp, we know there are several American cities that 
have deployed 5G, but it seems that a few of the bands' vital 
5G deployment, some of which are under discussion today, may be 
years from being auctioned. How can the United States get 
these, and future bands we are not even discussing, to market 
quicker to ensure that we don't lag behind our global 
competitors out there?
    Mr. Knapp. Yes, absolutely. So we have already auctioned 28 
and 24 gigahertz, and you are starting to see deployments 
there. You are also seeing some deployments at 39 gigahertz 
because of the flexibility we have provided in the rules. It is 
often not understood that the way we did things didn't require 
everything to be auctioned, because we provided more 
flexibility to the existing licenses.
    And we are planning to conduct an auction at 37-39 and 47 
gigahertz towards the end of this year. And I mentioned, I 
think, that at 2.5, an overlay auction next year as well as 
auctions of the PAL licenses at 3.5. So, we are moving pretty 
quickly across all fronts to auction spectrum.
    In these other lower bands, there is flexibility, so that, 
for example, in the 6 and even the 7 hundred megahertz existing 
bands, it would be up to the carriers when the technology is 
ready to deploy there as well.
    Mr. Latta. OK. Well, thank you very much, Mr. Chairman, and 
I will yield back the balance of my time.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes--oh, Mr. Pallone is not here and Mr. Walden is not 
here. OK. So we will now go to Mr. McNerney. You have 5 minutes 
for questions.
    Mr. McNerney. I thank the chairman. I will try not to run 
over.
    And I thank the witnesses.
    This is an inherently bipartisan issue, and the real focus 
should be on effective use of the spectrum. Access to 
unlicensed spectrum has fostered innovation and created 
opportunities in many sectors, revolutionizing areas such as 
healthcare, agriculture, and education. This has led to a lot 
of benefits across the spectrum in another sense.
    Mr. Knapp, do you think freeing up more unlicensed spectrum 
is important for continuing to promote innovation?
    Mr. Knapp. Long answer: Absolutely.
    Mr. McNerney. OK, good. Thank you. That is what I would 
hope you would do.
    Last month, I, together with several bipartisan members of 
this subcommittee, sent a letter to Chairman Pai urging him to 
move forward with a rulemaking proceeding that takes a fresh 
look at the 5.9 gigahertz band, which provides significant 
opportunities for unlicensed usage. I am disappointed that this 
isn't on the tentative August open meeting agenda. We are 
overdue for reexamining how to reallocate this band so that it 
meets the demands of our times and best serves the American 
people. It is important that the Commission act quickly to get 
this proceeding underway.
    The 6 gigahertz band is also critical for providing 
unlicensed spectrum. This band is very important for deploying 
Next Generation Wi-Fi technology to offer tremendous 
opportunities for our customers and our Nation's economy. There 
is a record, however, of the 6 gigahertz proceedings that 
includes discussions about potential interference with 
unlicensed use in this band.
    Mr. Knapp, how are things progressing toward finding a 
solution that allows unlicensed use of the 6 gigahertz band 
while protecting utilities and public safety users?
    Mr. Knapp. Yes, thank you for the question.
    Things are moving along well. The key challenges there are 
all of these point-to-point microwave systems that we have to 
make sure we don't interfere with, the public safety systems, 
the systems used by the utilities, and so forth. So what we 
proposed was an automatic frequency coordination system for 
outdoor deployments that makes sure, essentially, we stay out 
of the way of the areas that could interfere with those 
microwave systems. There is debate about the indoor use and 
whether it needs to be included as part of that system or the 
power levels are so low and the protections that they can just 
operate like your normal system.
    So we are continuing to have meetings with stakeholders, 
lots of good ideas put forward. And the key is that we want to 
move forward and protect the incumbents.
    Mr. McNerney. Well, we need to move forward in a timely 
fashion.
    Mr. Knapp. Yes.
    Mr. McNerney. It is certainly an exciting area there.
    NTIA's Engineering Lab recently shared its Spectrum Access 
System laboratory test results, and they said that there was a 
critical part of advancing the sharing model of the Citizens 
Band Radio Service in the 3.5 gigahertz band. Mr. Khlopin, can 
you explain how these engineering reports are used in 
disposition of the 3.5 gigahertz band?
    Mr. Khlopin. Sure. I am happy to do so, and some of this, I 
think, will actually be a question for the FCC.
    But the Spectrum Access Systems are the software 
controllers, if you will, to manage the protection for 
incumbents there. So, it literally will send signals to the 
networks and the devices when channels are available or when 
they need to vacate them to protect incumbents. So, the SAS 
literally manages that. It is software-based. It is a newer 
technology.
    What we are working through is a process with the 
Commission on how they will be certified. So, the ITS role was 
to test the software and work with the SAS vendors. As you 
indicated, those draft reports were completed, sent to the SAS 
vendors, and ultimately these will end up back at the 
Commission for the Commission to do the final certification 
approval.
    Mr. McNerney. Well, good. I am glad to hear about that. Can 
you tell us a little bit more about how the collaboration has 
been working?
    Mr. Khlopin. The collaboration has been absolutely 
fantastic at both NTIA, including ITS, with the FCC, with the 
Department of Defense as an important stakeholder there with 
the incumbent Navy radars, as well as the industry, the SAS 
vendors and other vendors as well, organizations like the 
WinnForum, the CBRS Alliance. So it is an extremely great 
example of collaboration/coordination that we would like to use 
in other places as well, too.
    Mr. McNerney. Can you describe the disagreement in the 24 
gigahertz band?
    Mr. Khlopin. So the disagreement, again, this is, you know, 
at a high level it is not so much a disagreement on the 
spectrum being made available or an auction occurring. This has 
to do with out-of-band emission levels, that there is a long 
process for setting these that we continue to work through.
    Mr. McNerney. I have heard that we are behind our 
competitors with 5G, and I am going to leave that hanging. But 
I would like a little explanation of that in the written word.
    Mr. McNerney. Thank you.
    Mr. Doyle. The gentleman's time has expired. The Chair now 
recognizes Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and thank you, Mr. 
McNerney, for leaving it hanging. So, I appreciate that.
    So we hear a lot about 5G, and not to be confused with 10 
gigabyte internet or the Internet of Things. But I want to make 
sure, from a rural district, that we don't lose focus on trying 
to get rural areas connected. 5G offers a great opportunity.
    Also in your testimony, you say that--well, I am really 
speaking to Mr. Knapp right now--we have low spectrum, mid- and 
high-band spectrum that all has to work together. But in my 
focus to rural America, how do we make low-band spectrum 
available, and how might this additional spectrum be applied in 
practical sense to improve the daily lives of rural Americans?
    I did an ag tour just last week. We have a tariff war going 
on. We have a wet season. And agricultural America is really 
moving to technology, like everybody else, to be able to help 
them feed the world.
    So, for the low band, what do you perceive as you listed in 
your testimony?
    Mr. Knapp. So I know that at least one of the carriers has 
suggested that they would provide coverage out into the rural 
areas in low band. I do think, absolutely, we need to improve 
the availability of broadband into the rural areas. Much of 
that is also on the policy side, things like providing greater 
flexibility for the incumbent licenses to provide access to 
spectrum. We have a proceeding on aggregation and 
disaggregation, and so forth, that is seeking to provide that 
kind of flexibility. It stemmed from the NOW Act. But we are 
fixated as well making sure we get 5G out into the rural areas.
    Mr. Shimkus. So, did I get an answer?
    [Laughter.]
    I mean, you say flexibility and kind of mealy-mouth.
    Mr. Knapp. Yes. So, basically, it is providing the policy 
structure to give the incentives to the carriers to deploy out 
there. And it is a combination of programs, whether it is 
universal service or policy changes that I just referred to.
    Mr. Shimkus. OK, thanks. And mid-band spectrum will be 
helpful in making use of the multiple new Wi-Fi devices coming 
to the market, correct?
    Mr. Knapp. Correct.
    Mr. Shimkus. And you mentioned your work on the 2.5 
gigahertz band, and Mr. McNerney mentioned that briefly. Is 
that generally where we start using the mid-band label?
    Mr. Knapp. Yes. I mean----
    Mr. Shimkus. Great answer.
    [Laughter.]
    Mr. Knapp. Like a lot of things, it is a little bit more 
nuanced, but that is the area that we are generally focused on 
when we talk about mid-band, is from roughly 2.5 up to the high 
end of C-band, 4.2.
    Mr. Shimkus. So you indicated FCC was conducting the phase 
2 and phase 3 field tests exploring the feasibility of 
spectrum-sharing with unlicensed devices in the 5.9 gigahertz 
band. Do you know when the FCC will issue a notice that takes a 
fresh look at this band?
    Mr. Knapp. So the spectrum we were talking about, 75 
megahertz of spectrum, was allocated quite a long time ago for 
Intelligent Transportation Services. So, we started proceeding, 
following from the Spectrum Act in 2012, to look at sharing 
with unlicensed. We have completed phase 1, the lab tests, 
issued a report. The Transportation Department is working on 
phase 2 right now, which is basic field tests. And there have 
been some other developments with a new technology called C-
V2X. That is different than what our rules allow right now for 
something called dedicated short-range communications.
    So, all along, we have worked closely with the NTIA and the 
Department of Transportation. We are continuing to do so. And I 
expect that there will be an item presented to the Commission 
very soon.
    Mr. Shimkus. Thank you.
    We just finished having the House National Defense 
Authorization Act on the floor. Of course, it ended up going 
into jurisdictional issues across committee lines.
    So, for Mr. Khlopin, the Senate Armed Services Committee 
included language in theirs that would give DoD a role in 
managing both Federal and non-Federal spectrum. Did you all 
review and approve this language?
    Mr. Khlopin. No, we did not.
    Mr. Shimkus. OK. Thank you.
    And that is my time. I yield back.
    Mr. Doyle. Thank you. The gentleman yields back. The Chair 
now recognizes the vice chair of the committee, Ms. Clarke, for 
5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our ranking member, Mr. Latta.
    I want to thank our witnesses for your testimony here 
today.
    Today's discussion is critical to the future of our Nation. 
Our discussion will help ensure that the United States is the 
preeminent leader in the race to 5G. However, we can't settle 
for a silver or a bronze medal. Right now, China is the world's 
leader in 5G. They are eating our lunch. And with Russian 
propaganda campaigns and our seeming lack of urgency, we are 
not pursuing this with the type of urgency that is required for 
us to be preeminent in this space and to use this technology to 
be leaders in the world. America must win the readiness race 
and, through that, the unleashing of innovation worldwide.
    And as we race forward, it is important to keep in mind 
that there are so many people with skin in the game. Our 
constituents want to know and hear our approach to spectrum 
policy that will impact their daily lives. This month, Public 
Knowledge and other interest groups wrote a letter to the 
Senate Committee on Commerce, Science, and Transportation on 
this very topic, specifically the reallocation of C-band. This 
request must be highlighted in our discussion to ensure that 
underserved areas and historically underserved communities have 
voices at the table.
    I will close by quoting Phillip Berenbroick, policy 
director at Public Knowledge: ``Allowing this spectrum to 
remain underutilized or permitting a private sale will not 
serve the public interest or help achieve pressing national 
goals such as closing the digital divide.''
    So, I urge my colleagues to keep this in mind as we discuss 
this matter on spectrum.
    And I wanted to just ask a question of you, Mr. Knapp. It 
should be expected from Members of Congress to work to bring 
our communities into the 21st century through innovation and 
technological change. Today, we see the workforce transforming 
before our eyes. Mr. Knapp, as you highlighted in your 
testimony, new generations of wireless services have created 
new businesses and new jobs. Can you please elaborate on the 
transformation of the workforce as you have described in your 
testimony and with regard to the new creation of new businesses 
and jobs?
    Mr. Knapp. Yes. So, as I mentioned in the testimony, each 
generation of wireless technology has brought with it growth in 
jobs and the economy. When 3G and 4G came along, nobody 
envisioned the apps economy that we all take for granted today, 
the applications for getting us through traffic, and so forth.
    So the one thing that I think we can be certain of is that 
the capabilities of this next generation of technology which 
effectively allow for instantaneous interactions--so I can now 
react and remotely control a machine, for example--which of 
these things might emerge? Which of these things haven't been 
imagined yet? I can't tell you, but what I do know for sure: It 
is going to be astounding.
    Ms. Clarke. Yes, and I am talking about workforce, 
entrepreneurship----
    Mr. Knapp. Yes.
    Ms. Clarke [continuing]. And the future of work----
    Mr. Knapp. Yes.
    Ms. Clarke [continuing]. For Americans. So, having said 
that, knowing the ultimate potential or the idea of the 
potential of what this will unleash in terms of what I call the 
next industrial revolution, which is the use of technology at 
work, do you believe that this new workforce should reflect the 
diversity of America?
    Mr. Knapp. Yes.
    Ms. Clarke. If so, how could the FCC ensure that that 
occurs?
    Mr. Knapp. I think by making sure that we have a variety of 
ways that people can gain access to spectrum as well as access 
to the services that are provided.
    Ms. Clarke. And that means that we have to have a 
deployment that goes into every community across this Nation: 
rural, suburban, urban.
    Mr. Knapp. Yes.
    Ms. Clarke. OK. Very well. There is work to be done in that 
regard.
    Mr. Knapp. Yes, and we are trying to do it every day.
    Ms. Clarke. All right. Very well.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentlelady yields back. The Chair now 
recognizes my friend Mr. Olson for 5 minutes.
    Mr. Olson. Thank you, my dear friend from Pittsburgh, 
Pennsylvania, home of the Pittsburgh Steelers.
    Welcome to our witnesses.
    As has been said over and over, this hearing is about 
technology and lots of challenges, like 5G, spectrum access. We 
have been talking about conflicts between key players in this 
whole endeavor. I want to remind everybody that on this day 50 
years ago Americans showed the whole world we could overcome 
anything with technology. Apollo 11 was going to the moon right 
now 50 years ago to bring Neil Armstrong and Buzz Aldrin to 
walk on the moon, and Mike Collins, to bring them back home. 
So, again, we can do this if we commit and work together.
    My first question is to you, Mr. Khlopin. Given the need 
for more mid-band spectrum, can you elaborate on what NTIA is 
doing to encourage and accelerate spectrum-sharing in the 3.1 
to 3.55 gigaband arena?
    Mr. Khlopin. Sure. Happy to do so. Thank you very much for 
the question.
    The 3.1 to 3.55 is a large block of spectrum. In fact, 
Congress directed us to take a look at that in the RAM BAUM'S 
Act. So, we will be submitting a report to Congress by, I 
believe, March 2020.
    So we started aggressively looking at that range. What we 
found in the short term is the upper 100, the 3450-to-3550, 
presents the opportunity in the near term to make spectrum 
available. Having said that, we will continue to look for the 
larger block as well.
    So we started internal work, extensive work, with our 
engineers and the scientists to examine initial feasibility on 
whether that spectrum could be available using all kinds of 
analysis and tools, and working with the Department of Defense 
as the incumbent. And that is likely to transition into a 
further study, assuming everything looks good upfront, from the 
Department of Defense, using the Spectrum Relocation Fund/
Spectrum Pipeline Act dollars, Spectrum Pipeline proposal, to 
look into more detail on how that could occur.
    Mr. Olson. Interesting answer. Somewhere, hopefully, 2020, 
late 2020, early 2021, that is something we should expect?
    Mr. Khlopin. Absolutely. Yes, for more of a final 
determination, if you will, on availability. Again, we are very 
optimistic about it. It is similar to the CBRS band, but the 
radar systems in there from the Department of Defense are 
different.
    Mr. Olson. Yes, yes, yes.
    Mr. Khlopin. Yes.
    Mr. Olson. The next one is for you, Mr. Knapp. A company 
back home called Wilson Amplifiers--they are in Stafford, 
Texas, they are in Texas 22--they are a value-added reseller of 
cellular amplification. They use this technology, they provide 
it to individuals, homes, cars, and commercial buildings. Can 
you please explain how signal boosters will assist in the 
implementation of 5G technology? How about signal boosters?
    Mr. Knapp. Sure. So what a signal booster does, it 
basically is an add-on to a device like a cell phone to 
increase the range. And the FCC adopted rules just a few years 
ago, I think, largely driven by Wilson, to accommodate those 
devices, to make sure that they didn't spill out energy into 
frequency bands that they shouldn't. So it is something that we 
have made an allowance for, and it would be up to consumers 
whether they want to take advantage of that.
    Mr. Olson. And the consumer is always right. One final 
question, sir. In case you don't know this, but Mr. McNerney 
and I are the cochairs of the House AI Caucus. And we have had 
a few packed meetings this past couple of weeks, I mean jammed-
packed meetings on flyaway days.
    As you know, AI can impact on the future telecommunication 
industry. What is the FCC doing for AI and the network 
optimization?
    Mr. Knapp. So we have a Technological Advisory Council. And 
one of the things that we have tasked them to do for this year 
is to give us feedback and recommendations on artificial 
intelligence, its role in the networks, conceivably what it 
could do to increase access to the spectrum.
    Mr. Olson. Chairman, I have no more questions. I yield back 
the balance of my time. Thank you.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Ms. Eshoo for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman.
    And it is wonderful to see both of you.
    Mr. Knapp, I have probably been asking you questions and 
working with you for almost half of your career.
    Mr. Knapp. Yes.
    Ms. Eshoo. So, thank you for everything----
    Mr. Knapp. Thank you.
    Ms. Eshoo [continuing]. That you have done and your 
commitment to all the issues over the years. I mean, you have 
an encyclopedic knowledge of all of this.
    So it seems to me that the discussion about unlicensed 
continues to be in many ways the same. First of all, it is the 
most, I think, innovative platform relative its use of 
spectrum. And there always issues about interference. There are 
always groups that say, ``Uh-uh, no, we can't do this because 
it is going to be a problem.'' And then, there is the other 
kind of Greek chorus on the side of the stage that says, 
``Let's share,'' except there are problems with that. So, this 
isn't any--I don't want to hurt your feelings, but this isn't 
anything new.
    [Laughter.]
    These things come up all the time. I have confidence that 
you can work them out.
    Mr. Knapp. Yes.
    Ms. Eshoo. You are a pro, and we always have to pay 
attention to what the public safety people are saying, because 
that whole system has to always be working superbly well 24/7. 
There just isn't any room for something that would take down 
what they need.
    So the FCC is considering the 5.9 gigahertz and the 6 
gigahertz bands for unlicensed uses. Aside from just allocating 
more spectrum for unlicensed uses such as for Wi-Fi, are there 
benefits to assigning a contiguous spectrum band or subparts of 
the bands for unlicensed uses, rather than more of a piecemeal 
approach? Are you considering that?
    Mr. Knapp. What we have, the existing 5 gigahertz band, we 
have the transportation spectrum here, and then, we have above 
it the 6 gigahertz spectrum that we have been talking about.
    Ms. Eshoo. Right.
    Mr. Knapp. The kind of sharing that has been discussed in 
5.9 has not been all of it. It has been some of it.
    Ms. Eshoo. So, what are you saying? It is not, can't be 
contiguous?
    Mr. Knapp. So, to finish this out, though, the technology 
today does not have a real problem with these little 
discontinuities, as long as they are close. The technology has 
the smarts to piece it all together in a way----
    Ms. Eshoo. So, the technology can, essentially, make it 
contiguous?
    Mr. Knapp. Yes.
    Ms. Eshoo. I see. Well, that is good news.
    If you consider all the various bands that the FCC is 
considering for unlicensed uses, is this enough?
    Mr. Knapp. Is this enough? I have been at it a while. It is 
never enough.
    [Laughter.]
    Ms. Eshoo. Well, the appetite keeps increasing. So, yes.
    Mr. Knapp. And that is a good thing----
    Ms. Eshoo. Yes.
    Mr. Knapp [continuing]. Because it is doing terrific things 
for the American people. I think we have got a lot on our plate 
right now. We want to make the TV white spaces more amenable 
for rural deployment. We are working on 5.9. We have got the 
proceeding on 6. We opened up the spectrum at 60 gigahertz a 
huge amount. And the technology evolves at something called 
WiGig. And we just opened up another 21.2 gigahertz of spectrum 
above 95 gigahertz. This is spectrum----
    Ms. Eshoo. So, what you are describing, does that get us 
out in front of it all, or are we just trying to keep up with 
the appetite?
    Mr. Knapp. I think what we are always trying to do is stay 
out in front.
    Ms. Eshoo. Good.
    Mr. Knapp. And I would say the United States has led the 
way worldwide----
    Ms. Eshoo. Don't say, ``try,'' say, ``We're going to.''
    Mr. Knapp. Yes.
    Ms. Eshoo. Say, ``We're going to.''
    Mr. Knapp. We are going to.
    Ms. Eshoo. OK, good. Good. Now I am satisfied.
    With all of this becoming available, what kind of hardware 
upgrades will be needed? Will we need new chips in phones, 
routers in our homes?
    Mr. Knapp. No, you won't need new things. What will happen 
is, you will see products with new capabilities. So, everything 
you have is not obsolete. It will be up to the consumer----
    Ms. Eshoo. Oh, I am going to remember that, then. Yes, OK.
    [Laughter.]
    Words don't matter here?
    Mr. Knapp. You are going to back me up, I sure hope.
    But, absolutely, the idea is that you would continue to be 
able to use all the existing stuff. But if we open up the 6 
gigahertz band, what I anticipate will happen is this will be 
added as a new capability.
    Ms. Eshoo. Thank you, Mr. Chairman. Yield back.
    Mr. Doyle. I thank the gentlelady. I now recognize Mr. 
Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Knapp, I was a little bit disappointed--well, a lot 
disappointed, actually--to see last week that there was not a 
priority window included for rural educators using EBS licenses 
as part of the FCC's order on the 2.5 gigahertz band. How will 
the new rules for the 2.5 gigahertz band spectrum benefit rural 
areas? And is there a strategy for using 2.5 gigahertz band 
spectrum to bridge the digital divide?
    Mr. Knapp. Yes. So this was certainly a policy call, not a 
technical issue. And I know there were tough decisions that 
were made. There is a drive for mid-band spectrum. And so, this 
was one of the--this is the largest band of mid-band spectrum 
below 3 gigahertz that was available. Throughout much of the 
country, the spectrum was not in use. And so, what the 
Commission did is the existing licensees don't lose any of 
their rights. Their existing leases can continue, and it will 
give them flexibility to move from some of the constraints that 
there are in the current rules, with the idea that we also have 
a priority window for Tribal nations to apply for use of that 
spectrum, and then, to do an overlay auction for the areas 
where there is no use now.
    Mr. Johnson. But if we could do a carveout for Tribal 
nations, which have the same problem that rural America does as 
far as the urban-rural divide, why wasn't there a carveout for 
those licenses in rural America?
    Mr. Knapp. I think there is an explanation in the 
Commission's decision that basically said there was a belief 
that greater flexibility would better incentivize investment 
into the rural areas, rather than the restrictions that we had 
before. And those restrictions that were there previously were 
largely used as part of leases for broadband.
    Mr. Johnson. Well, I wish I shared your optimism that that 
investment is going to come, because we have been talking about 
the rural-urban divide now for almost 9 years, since I came in 
in 2011. And in spite of the amount of money that we have put 
into it, I can tell you, in Appalachia we are not seeing a lot 
of progress on the ground.
    I also understand the FCC is considered the expert agency 
at determining thresholds for interference between entities 
using spectrum. I would like to ask you some questions 
specifically about the process the FCC undertook when it looked 
at auctioning the 24 gigahertz band, a band identified for 5G 
services. So, did standard interagency coordination take place 
before the FCC moved forward with rules and the auction of the 
24 gigahertz band? I understand that process took nearly 5 
years.
    Mr. Knapp. The short answer is yes, there was standard 
interagency coordination.
    Mr. Johnson. OK. And that auction of the 24 gigahertz band 
earned over $2 billion from wireless companies. Do I have that 
figure right? Is that right?
    Mr. Knapp. That is roughly right, yes.
    Mr. Johnson. OK. Chairman Pai, in a recent letter, wrote 
that, during your interagency process, quote, ``Other Federal 
agencies did not object''--unquote--to expanded use of the 24 
gigahertz band to 5G. Is that correct?
    Mr. Knapp. That is correct.
    Mr. Johnson. OK. When the Department of Commerce provided a 
study purporting to show there may be interference between 
weather centers and 5G use of the 24 gigahertz band, were you 
able to validate that study? I mean, wasn't that study based on 
a sensor that doesn't exist?
    Mr. Knapp. That is correct, and we had a number of concerns 
about the study.
    Mr. Johnson. OK. All right. Given your experience and long 
tenure at the FCC, are you confident that commercial wireless 
operations in the 24 gigahertz band can peacefully coexist with 
weather-sensing capabilities now and in the future?
    Mr. Knapp. Yes.
    Mr. Johnson. OK. Mr. Chairman, I am going to give you back 
37 seconds. I yield back.
    Mr. Doyle. I thank the gentleman. The Chair now recognizes 
Mr. Veasey for 5 minutes.
    Mr. Veasey. Thank you, Mr. Chairman.
    Mr. Knapp, good morning, and I want to thank you for being 
here today.
    I represent the Dallas-Fort Worth area. And it is one of 
the 11 cities of the FCC-granted T-band spectrum2 for public 
safety purposes. In the Middle Class Tax Relief and Job 
Creation Act of 2012, this spectrum was directed to be 
reallocated and auctioned off to commercial entities. And I was 
wondering if you could discuss some of the challenges of 
relocating the T-band spectrum to commercial users and whether 
there is any benefit to moving public safety entities and, to a 
lesser degree, broadcasters off of them?
    Mr. Knapp. Yes, so we are following the statute as it 
exists. I understand that parties are talking to folks in 
Congress. And so we have just looked to whatever guidance there 
is from Congress.
    And the technical challenges are always when you are trying 
to find space for systems that have spectrum today. And I don't 
know that there is an obvious place to relocate them, but that 
we would carry out whatever the statute calls for.
    Mr. Veasey. Well, thank you. Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you. I appreciate it.
    And thank you for your testimony, Panel.
    Mr. Knapp, CTIA has suggested we need a national 5-year 
spectrum plan. From an investment standpoint, I can see the 
value of this policy, since the testing and rollout of new 
capabilities is often a multiyear process. What are your 
thoughts on adopting a multiyear spectrum plan? This is for, 
again, Mr. Knapp.
    Mr. Knapp. Yes. So there are a few things that are going 
on. One, from time to time, for example, we conducted an 
inquiry about spectrum above 24 gigahertz, spectrum in the 
lower bands, and so forth, to identify spaces. It does take 
time to roll them out. So, that is what we have been doing, for 
example, in what we call the millimeter way of proceeding. So, 
we are constantly, rather than a static process, constantly 
looking at what are the others that are ripe for a look as 
well.
    And perhaps Mr. Khlopin can also talk about the work that 
is going on in the National Spectrum Strategy.
    Mr. Bilirakis. Yes, please. Please, if you would like to.
    Mr. Khlopin. Sure. I would be happy to talk about the 
National Spectrum Strategy. So this is, again, from the 
directive of the President, NTIA is leading development of this 
strategy. A forward-looking, sustainable approach, better 
tools, better collaboration, and how we can do a better job of 
managing spectrum into the future. It is less of a band-
specific, technology-specific approach we are looking at, but 
more in getting away from that and how we can ultimately expand 
access in a larger perspective, rather than just looking 
piecemeal, so we can come up with an approach for better 
solutions long term.
    Mr. Bilirakis. OK. Very good.
    One question for you, sir, again, Mr. Khlopin--and you have 
touched on this--but there is an article on the front page of 
The Washington Times last week, actually, titled, ``Savvy South 
Koreans Race to Embrace 5G Networks.'' Did you read that?
    Mr. Khlopin. I believe I am familiar with it, yes.
    Mr. Bilirakis. OK. The article notes that South Korea 
already has tens of thousands of 5G-based stations and it is 
projecting to serve 90 percent of the population by the of the 
year, while South Korea is significantly smaller than the U.S., 
obviously. This is a substantial deployment and consumer pickup 
rate of, again, 5G in such a short period of time.
    NTIA is required to release a report this month on the 
National Spectrum Strategy, as you alluded to. What do you 
recommend in your report to make more mid-band spectrum 
available, as we compete with South Korea and other countries 
in this race to get the 5G?
    Mr. Khlopin. So, again, in the National Spectrum Strategy 
we look at, particularly I think on the increased collaboration 
side, on how we can get parties together to act quicker, 
because a lot of this is about timing. We have talked about 
spectrum roadmaps and making spectrum available. How do we do 
it quicker? How do we do it faster?
    In the 3450-3550 megahertz discussion, which, again, is key 
mid-band spectrum, we have already--I talked before about an 
internal NTIA analysis going on on the band, but we have also 
reached out to industry stakeholders and invited them to come 
in and discuss with us a process on how we collaborate not just 
as the Government, but with industry as well. So, get a better 
understanding on the license side, on 5G, on unlicensed, the 
visions for how they might utilize the band, come up with an 
approach where we can get groups together, get engineers 
together from the Government and industry, and more quickly get 
the requirements in, understand systems, and work through that 
process.
    We did this in AWS-3 and that expedited things. And we are 
looking at similar things here. Again, each band, each 
analysis, is going to be a little bit different, but those are 
the type of tools we are looking at.
    And then, automating software, too. So, one of the big 
initiatives for NTIA is so much of our processes are more 
manual and slow, and we are trying to bring modernization, to 
bring better technology and artificial intelligence, bring that 
into the spectrum, you know, update spectrum management tools 
to reflect the industry that we are trying to make spectrum 
available for.
    Mr. Bilirakis. All right. Very good.
    Mr. Knapp, the FCC has an open rulemaking to allow 
unlicensed devices in the 6 gigahertz band. This spectrum is 
currently used for mission-critical backhaulings for public 
safety, again, commercial carriers, and utility companies. What 
steps can you take to prevent harmful interference to these 
important services?
    I don't have a lot of time, but----
    Mr. Knapp. I will make it very quick.
    Mr. Bilirakis. Thank you.
    Mr. Knapp. So, for the outdoor deployments, we would use an 
automated frequency coordination system to stay out of the way 
of those point-to-point links and not interfere with them. This 
is still an open proceeding. So, that is what we had proposed.
    For the indoor use, there is a debate about whether they 
need to be part of that or not, and at certain power levels, 
where there is so little risk that we don't need to tie them 
into a separate mechanism.
    Mr. Bilirakis. Very good.
    Mr. Doyle. The gentleman's time has expired. The Chair now 
recognizes Ms. Matsui for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    And I want to thank the panel for being here today.
    As you know, Agenda Item 1.13 will be considered at WRC-19 
to discuss identification of additional millimeter wave bands 
for International Mobile Telecommunications, or IMT. The 26 
gigahertz band has emerged internationally as a leading 
candidate for 5G services. International harmonization includes 
various different efficiencies, especially as equipment 
manufacturers are able to integrate several spectrum bands that 
the Commission has already auctioned for commercial use into a 
single radio. As you already know, the 26 gigahertz band is 
allocated primarily for Federal Government services.
    Mr. Knapp and Mr. Khlopin, could you comment on the 
potential of appropriate sharing of protection arrangements for 
Federal users in the band?
    Mr. Knapp. So one of the reasons that 24 is so important is 
because we asked about 26 in an open rulemaking proceeding, but 
the key here is it is very active Federal Government use.
    Ms. Matsui. Right.
    Mr. Knapp. It is probably better for the Department of 
Defense to speak to what they have in there.
    Ms. Matsui. OK. All right.
    Mr. Khlopin. Yes. No, I would echo that point, that we did 
take a look and it is more intensive use----
    Ms. Matsui. OK.
    Mr. Khlopin [continuing]. As opposed to some of these bands 
where you are dealing with adjacent, as opposed to coband 
systems.
    Ms. Matsui. OK. So, it is much more difficult. We will have 
to--OK.
    The international community has had a long history with 
consideration of the 4200-to-4400 megahertz band for 
terrestrial mobile use. In 1990, the ITU concluded that the 
whole of the band would be required up to the year 2015 for 
radio navigation services, but noted that current accuracy 
requirements may be achievable in a smaller bandwidth. And NTIA 
had previously initially identified the upper and lower 20 
megahertz segments of this band as a potential candidate for 
terrestrial wireless use. Of course, this band is reserved 
internationally for radio altimeters, based on onboard 
aircraft, and for the associated transponders on the ground. It 
is also adjacent to the 500 megahertz, the C-band spectrum 
currently under consideration for mobile use.
    Mr. Khlopin, what would NTIA's role be in determining the 
suitability of introducing mobile services into the upper 100 
megahertz of the C-band?
    Mr. Khlopin. Thank you very much for the question. And I am 
not real familiar with the specifics that you raised on the 
bands up above. So, we will probably have to get back to you 
and your staff. But, in general, again, if we have adjacent 
Federal services there, then we would be involved in the 
analysis and recommendations on how to move forward.
    Ms. Matsui. OK. Two major issues in slow additional 
wireless uses of both Federal and commercial spectrum bands are 
the need to relocate incumbent users and the need to conduct 
incompatibility analysis testing of additional services in 
existing bands, frequencies such as those between 7.125 
gigahertz and 8.4 gigahertz or the 4.9 gigahertz. Both offer 
potential opportunities, but currently there is no precise 
mechanism that exists for prospective commercial users to 
coordinate with either Federal or other commercial users to 
relocate or study compatible uses of spectrum bands.
    My SPECTRUM NOW Act creates additional opportunities for 
Federal users to access otherwise unused Spectrum Relocation 
Fund resources in some instances to perform the services. But I 
believe, if given the opportunity, commercial users may be open 
to providing resources to accelerate the relocation of 
incumbent users or study additional uses of existing bands as 
appropriate.
    Mr. Khlopin and Mr. Knapp, do any of you have any thoughts 
on allowing commercial users to make payments that could 
accelerate spectrum transitions?
    Mr. Khlopin. So, thank you very much for the question, and 
appreciate your leadership on these issues.
    I will start by saying that the administration does not 
have a position on your legislation specifically, but, more 
generally, we are certainly always willing to have these 
conversations about how to enable more effective tools. As much 
as I mentioned with the National Spectrum Strategy, it is 
figuring out how to better collaborate between industry and 
government users. So, we are very interested in exploring the 
possibilities.
    Ms. Matsui. OK, fine.
    Yes, any other comments here, Mr. Knapp?
    Mr. Knapp. No, not on that.
    Ms. Matsui. OK, great.
    Mr. Knapp. Federal spectrum.
    Ms. Matsui. OK. I think I am going to run out of time 
before I can ask the next question, so I will just yield back. 
Thank you very much.
    Mr. Doyle. The gentlelady yields back. The Chair now 
recognizes Mr. Walden for 5 minutes.
    Mr. Walden. Thank you very much, Mr. Chairman.
    And again, both of you, thank you for being here.
    Mr. Knapp, we were talking earlier in the hearing about the 
WRC conference that is coming up, a little focus on CTeL, 
focusing on the Americas. And I would appreciate your insights 
on both of these critical forums and other priorities that the 
U.S. and the administration have for this.
    I also want to get back to this NOAA and NASA study issue. 
I would just tell you, I am tired of reading about it in the 
press and not being able to get a copy of it. I am told the 
Science Committee was provided a copy of it. I realize there 
are processes you all have to go through in the administration, 
but I recall pretty distinctly a time when the President stood 
next to the Chairman of the FCC and said, ``Here's my policy 
going forward on 5G.'' And then, there has been all this 
dysfunction since.
    And so, I want a copy of that study. Mr. Knapp and I have 
worked together on a number of issues going back to 
LightSquared, when I dragged you in as the engineer-in-chief to 
help sort out the politics from the reality of the actual 
technology.
    And we have got to figure this out, and we can only do it 
effectively if we have access to the information. And so, this 
has to get cleaned up. It is nonsense.
    So, if you all can, back to the point here, if you all can 
talk about what you expect we should pay attention to in WRC 
coming up. Mr. Knapp?
    Mr. Knapp. So, quite a few issues. I have been more 
involved in support for the spectrum side. I think 
Congresswoman Matsui referred to Item 1.13----
    Mr. Walden. Right.
    Mr. Knapp [continuing]. Which is all about spectrum for 5G, 
and so forth. And so it is always a dual mission for us to make 
sure we get access and make sure that nothing is done that is 
going to harm the U.S.
    Mr. Walden. Right.
    Mr. Knapp. And what is being debated here is what are the 
protections for the passive satellite bands.
    Mr. Walden. Correct.
    Mr. Knapp. Twenty-four is just one of them. There are 
others at 32, and so forth. And so, the discussions--I know 
there is a lot of reference to this one study. There are 
actually more than 10 studies that have been submitted 
internationally----
    Mr. Walden. Ah.
    Mr. Knapp [continuing]. That are publicly available. It is 
not just one.
    Mr. Walden. Maybe you could give us a list of those at some 
point?
    Mr. Knapp. Right. Happy to.
    And each comes to a different proposed limit. The tradeoffs 
here are always the level of protection that is assumed through 
the analyses----
    Mr. Walden. Right.
    Mr. Knapp [continuing]. Versus the viability, whether 
anybody can meet it. I think one of the big concerns for us, 
and as we strive to find access to spectrum, is that we don't 
create protections that are so stringent that we are leaving 
thousands of megahertz of----
    Mr. Walden. Right.
    Mr. Knapp [continuing]. Of spectrum on the table.
    Mr. Walden. Right, and I think that has been my concern. 
Nobody wants interference, but I have heard that you are going 
to wipe out every satellite that does anything related to 
weather and NASA is going to have to shut down. I mean, that is 
kind of the spin that seems to be coming, and I am not 
convinced that is what we are doing.
    Mr. Knapp. I am quite confident that is not going to 
happen.
    Mr. Walden. And I have read some things, that these are old 
transponders or something, that aren't even in use now that was 
part of an underlying study, some receiver.
    Mr. Knapp. So, there are a number of sensors on the 
satellite.
    Mr. Walden. Right.
    Mr. Knapp. This was one of them that was used for the 
analysis. There are other sensors. We are committed to 
protecting them. What we also want to see is that whatever is 
adopted is reasonable, based on not absolute worst-case 
science.
    Mr. Walden. And while we are on the international 
conferences, I referenced the issue with the Russians and RT, 
which, Mr. Chairman, I would put in the record the story, if 
that is OK.
    Have the Russians raised this issue of health effects from 
5G at any of the international conferences you all have 
attended?
    Mr. Knapp. I am not aware.
    Mr. Khlopin. I do not believe so. I have heard there has 
maybe been the equivalent of water-cooler talk, if you will, 
when the story was out in The New York Times, but I am happy to 
also explore further with our team that attends the ITU 
meetings.
    I also wanted to take just a quick opportunity, too----
    Mr. Walden. Sure.
    Mr. Khlopin [continuing]. To come back on the studies and 
24 gigahertz. And I know it was characterized before that NOAA 
and NASA--and by the way, on the study, again, it is not an 
NTIA study. So, we can't deliver it, but I am happy to take 
back that request for the committee----
    Mr. Walden. Yes, it needs to happen.
    Mr. Khlopin [continuing]. To the Department and NOAA. I do 
know they want to be transparent.
    But, on the issue generally of the studies, I want to be 
clear. It was not that NOAA and NASA or NTIA, or anybody, was 
thinking this band with 24 gigahertz is not available for 5G. 
Again, it is a discrete issue on the out-of-band mission 
protection levels. And, as Mr. Knapp indicated, we believe that 
both can coexist.
    And also, going back in time, there was also, I believe, a 
conversation or an allegation that the agencies brought this to 
attention late. And this goes back 2 or 3 years, a study 
underway. The FCC report and order actually says that we have 
the potential to reevaluate these rules, based on further 
international studies. You know, auction participants were 
fully on notice. So, all that. This is a typical process. It 
just, unfortunately, got a lot more publicity this time.
    Mr. Walden. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Doyle. The Chair requests unanimous consent to enter 
the document that Mr. Walden referenced into the record. 
Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. The Chair now recognizes Mr. Schrader for 5 
minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate that.
    I guess, Mr. Knapp, with regard to low spectrum sales and 
auctions, when is that going to occur and, given the interest 
in the mid-band and the versatility of the mid-band, are we 
concerned about subscription to that auction? And what are we 
doing to incentivize that? I mean, this is going to be the 
rural broadband or the rural expansion. And historically, the 
ROI has been less than you see in some of the suburban and 
urban areas. So, how are we going to incentivize, since our 
plan is based on, frankly, private industry supplying the need, 
how are we going to incentivize that? And what do you 
anticipate?
    Mr. Knapp. So the spectrum at 600 megahertz is what was 
obtained through the TV incentive auction. So we are repacking 
the TV band. We have auctioned the licenses. The carriers are 
in the process of deploying. One of the carriers has made 
commitments that they would deploy service into most of the 
country, including the rural areas. These other bands that we 
talk about as low, 700 megahertz, which we have done a while 
ago, the 800 megahertz--sorry to throw out so many numbers--
but, as a matter of policy, we provided flexibility to the 
carriers to change the technologies as they see fit.
    So, what has happened is, as they introduce the newer 
technologies into the newer bands, and then over time deploy it 
into the legacy ones--in other words, changing out the old 
ones. And I mentioned before that I think, on the policy side, 
there is work that is going on to incentivize deployment into 
the rural areas.
    Mr. Schrader. All right. I appreciate it. I am just 
concerned that it, frankly, doesn't quite sound like enough. I 
have the same concerns my colleagues from Illinois and Ohio 
have about how this is going to play out. We don't want to have 
rural America, rural Oregon in my case, left behind in this new 
international economy that is out there. So anything we can do 
to incentivize folks, more competition and, frankly, more 
investment in those areas would be great.
    Mr. Khlopin, first, 5G sounds wonderful. It is a nice 
little buzzword. And I can hardly keep up with 4G personally 
but understand I am old and that is just the way of things.
    But there are dangers. The Internet of Things sounds great, 
but given the evidence of the cyber threats that we are seeing 
nowadays from our ``friends'' in Russia, China, North Korea, 
Iran, you name it, what are we doing or what are our friends in 
the private sector, or what are our friends in the Federal 
Government doing, to make sure that we are not going to have a 
wholesale shutdown of the Internet of Things or some big energy 
sector or our financial institutions? How do we guard against 
this with the 5G interoperability and speeds that are 
occurring?
    Mr. Khlopin. Thank you for the question. I really do 
appreciate it. And I will preface this by I have mostly focused 
more on the spectrum issues, and I am certainly happy to have a 
followup conversation with you and your staff and bring in some 
of our experts.
    But you are right, there are a number of pillars, if you 
will, to 5G and IoT to make sure it is a success, and the 
spectrum was one piece. But we do need to make sure the 
security is there, the cybersecurity, the standards work, and a 
number of areas where we are involved, along with plenty of 
other government colleagues as well, is supply chain security. 
It is a significant issue, and we have seen vulnerabilities 
particularly in IoT, where they connect to the network and you 
can't trust the supplier necessarily or you have software 
upgradeability concerns and ways to tap into the network. So, 
we do worry about that: where the products are coming from, 
what is the supply chain.
    And cybersecurity as well is a significant issue, and NTIA 
and the Department of Commerce, with our colleagues at NIST, in 
particular, do a lot of work there as well. And one of the big 
reports we did recently is how to counter botnets, which are a 
significant threat in this space as well, too.
    So, it is a little bit ``all of the above'' and also 
working internationally with our global allies, so we all share 
similar concerns.
    Mr. Schrader. I appreciate it. I just want to draw 
attention that I know we are having an intelligence 
reauthorization coming up, and I know there is a lot of work 
going on, partnering with the private sector, government 
sectors, partners across the world, because that is going to be 
a big issue. We don't want to have a brownout of the United 
States of America as a result of our connectivity, frankly.
    Well, I guess my time has expired. Thank you, Mr. Chairman. 
I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you all for being here.
    I would like to circle back on the 24 gigahertz band, which 
I broached at the FCC oversight hearing in May. As I explained 
to the Chairman and Commissioners in May, my top priority when 
I come to work every day is U.S. national security and the 
safety of my constituents. Thankfully, Chairman Pai provided 
assurances to me and this committee that there was really 
nothing that is cause for concern, and he promised to work with 
us and other relevant agencies to assess and report cases of 
interference, in order to mitigate future instances.
    But I would like to ask some more technical questions, Mr. 
Knapp. It is my understanding that there are nearly 40,000 
high-powered fixed microwave links deployed in the 21.2 to 23.6 
gigahertz band, which is adjacent to and directly below the 
23.6 to 24 gigahertz band. These services are operated under 
the same out-of-band emission limits adopted for the 24 
gigahertz band. And, unlike with the 24 gigahertz band, there 
is no guard band separating this from the 23.6 to 24 gigahertz 
band. So have you been alerted to any interference to the 
passive band from those services at all?
    Mr. Knapp. No.
    Mr. Kinzinger. And how would NOAA's suggested out-of-bands 
emission limit for the 24 gigahertz impact 5G deployment in 
that band?
    Mr. Knapp. So the question is the achievability of the 
level that they are talking about. And if it is set so 
stringent that nobody can meet it, it risks our ability to use 
that spectrum.
    Mr. Kinzinger. Got it. And let me ask you a little bit 
about a little less controversial, the C-band. Mr. Cardenas and 
I wrote a letter to the FCC in January expressing thanks for 
working to clear spectrum for 5G, but also expressing our 
desire for the Commission to simultaneously strive to avoid 
unnecessary disruptions in the content-based services American 
consumers currently enjoy during the transition. Let me ask you 
again, sir: The Commission responded to our letter, and it 
seemed to confirm that it generally shares those goals. But 
would you please briefly explain how the Commission proposes to 
facilitate continuity in services with minimal disruption?
    Mr. Knapp. Yes. We have several proposals before us about 
how to transition the spectrum. One of the objectives for the 
Commission all through this is that the incumbents would be 
protected and made whole. So, although there are different 
approaches, and without going into some of the technical 
details about switching channels and so forth, we would ensure 
that they are accommodated.
    Mr. Kinzinger. So, you have multiple options with those 
overall values that you will----
    Mr. Knapp. Yes.
    Mr. Kinzinger. OK. Do you know when that is going to be 
decided, by chance?
    Mr. Knapp. So the Chairman has said a bit later this year, 
as I mentioned in the testimony, that we would have some action 
to report.
    Mr. Kinzinger. OK. And how is the FCC ensuring that 
important safety of flight services are protected from 
interference, such as the 4200 to 4400 megahertz band, also 
known as the flight altimeter band, and are you working on that 
with affected stakeholders?
    Mr. Knapp. Yes. So, it is often missed, and I think it came 
up before when we talked about this band just above it at 4200 
to 4400, the radio altimeters are there. We need to make sure 
that they are protected as well. I think these different plans 
are looking at different amounts of spectrum, and we have to 
understand, if we get close, what the tradeoffs would be to 
protect them.
    Mr. Kinzinger. OK. Because I know, obviously, that is 
really important----
    Mr. Knapp. Yes.
    Mr. Kinzinger [continuing]. Safety in flight issue.
    Mr. Knapp. Absolutely.
    Mr. Kinzinger. And then, Mr. Khlopin--I am probably not 
saying your name right, I am sorry.
    Mr. Khlopin. No, you got it.
    Mr. Kinzinger. Did I? Whoa.
    Next Generation national security systems and solutions are 
often spectrum-dependent. What is the NTIA doing to ensure that 
there is adequate spectrum to accommodate growing national 
security requirements generally?
    Mr. Khlopin. Thank you very much for the question.
    And if you don't mind, I am actually going to go back to 
your 24 gigahertz----
    Mr. Kinzinger. Sure.
    Mr. Khlopin [continuing]. Real quickly. You raised the 
issue of other adjacent services to 24, and I just thought it 
was important to point out one of the distinctions there, and 
those are longstanding rules. And when they were originally set 
up, you had a much lower number, and these are generally, 
traditionally fixed microwave deployments. So now, we are 
looking at an analysis here on 5G coming in there. It does 
change the scene a little bit. You are talking about intensive 
mobile use, high-density areas. So, this is why you go through 
this long, lengthy process of doing a study and taking opinions 
from Study Group One, ITU, that brings in the parameters when 
you are looking at a 5G system. So, it is not quite an exact 
comparison to look at the protection values that have existed 
before.
    Mr. Kinzinger. OK. And I will just cut you off there 
because the other one is really broad, and we are running out 
of time. But I thank you guys both for being here and your 
testimony.
    And I will yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Ms. Dingell for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    As you know, I am from Michigan. I am a car girl. And I am 
probably the one person in this room really paying attention on 
the 5.9 gigahertz spectrum band, and I am really worried about 
what is going to happen to it because I am hearing rumors.
    Mr. Knapp, it is my understanding that you helped designate 
this spectrum. So, I thank you for your leadership and your 
work on it.
    I also read, though, that the FCC plans to announce a new 
NPR to take a fresh look at the 5.9 band that includes the 
potential of allowing nonauto safety technologies to utilize 
it. This happens as the Department of Transportation is about 
to begin phase 2 and phase 3 of interference testing to see if 
additional technologies can harmoniously exist within this 
spectrum. So, obviously, I am focused.
    So, Mr. Knapp, these questions are for you. One of the 
arguments I keep hearing against maintaining the 5.9 gigahertz 
spectrum strictly for automotive safety use is that the band is 
underutilized, that the auto industry has had 20 years, and the 
level of DSRC deployments hasn't happened as promised. Do you 
believe that?
    Mr. Knapp. I do believe that the things that were planned 
when the original allocation was done, and the hopes that we 
all had for the improvements to safety, haven't blossomed to 
the point that were envisioned at the time. So I am happy to 
take your questions, or I can say a little bit more.
    Mrs. Dingell. Well, let me keep building on this.
    Mr. Knapp. Yes, go ahead.
    Mrs. Dingell. Because I am worried that you are going to 
take that away, and the companies are worried.
    Mr. Knapp. Yes.
    Mrs. Dingell. So I also understand that, in addition to 
DSRC, the C-V2X technology shows great promise in the 
connecting of vehicles and infrastructure to achieve both the 
safety and orchestration benefits that were intended when the 
5.9 spectrum was reserved for automotive use. Would you agree 
that C-V2X could also help deployments and increase the 
utilization of the band?
    Mr. Knapp. So, to be clear, these decisions in the end will 
be for the Chairman and the Commissioners to decide. And what 
we have been doing----
    Mrs. Dingell. And I want you to make sure the Chairman of 
the Commission knows that some of us are paying attention.
    Mr. Knapp. And we anticipated that. So we have been working 
with the Department of Transportation and the NTIA on the next 
steps on this. And you are absolutely right, we have this other 
technology, C-V2X, that looks promising. I don't think we are 
at a point of saying whether it should be DSRC or C-V2X. But I 
think that the issue that we are grappling with is it has been 
a long time, there are a lot of things that have been 
happening. What should we do to take a look at how we can 
foster better use of the spectrum?
    Mrs. Dingell. Well, how are we going to make sure that the 
industry has the spectrum that they need as these things are 
coming online? And there have been a lot of forces that----
    Mr. Knapp. Yes.
    Mrs. Dingell. I mean, we are not going to do it in this 
whole hearing room.
    Mr. Knapp. Yes.
    Mrs. Dingell. But what I am worried about is that, when 
they need it, it is not going to be there.
    Mr. Knapp. Yes, understood. And I think for the Commission, 
it will be trying to take a look at these issues and get a 
better understanding of everything.
    Mrs. Dingell. I also understand that the Chinese government 
and 13 Chinese OEMs have committed to utilizing C-V2X. Is China 
ahead of the U.S. in recognizing the benefits of this 
technology?
    Mr. Knapp. I think that it is so new, that I would not 
characterize it as ``ahead.''
    Mrs. Dingell. But don't we need to worry?
    Mr. Knapp. I think we need to be focused.
    Mrs. Dingell. OK. With the FCC considering opening up the 
5.9 gigahertz safety spectrum to new technologies, how will the 
FCC ensure that there is no interference in the auto safety 
technologies and that vehicles equipped with different V2X 
technologies can talk to each other, which is a real concern?
    Mr. Knapp. Yes, absolutely. And I know that is a key point, 
for example, in working with the Department of Transportation. 
What do we do? Do we leave it open for all technologies, and 
what if they can't talk to each other? Is it partitioned in 
some way? And that all kind of speaks to trying to better 
understand where to go with this.
    Mrs. Dingell. Do you and DOT are talking the way that you 
need to be? This is nonscripted now, and I am about to go----
    Mr. Knapp. Yes, absolutely.
    Mrs. Dingell. I don't see everybody on the same page some 
days.
    Mr. Knapp. Well, I think we are working through some of the 
different viewpoints on it, but we absolutely are talking 
through it.
    Mrs. Dingell. Will the FCC move forward with any actions on 
the 5.9 gigahertz band prior to the completion of all 
interference testing? And should the testing prove that these 
additional technologies do, indeed, cause harmful interference 
on auto safety technologies, will you still split or look to 
open up this band?
    Mr. Knapp. So, a couple of things. We are continuing with 
the program for the testing. So we continue to be committed to 
seeing it through to its completion. If there is a rulemaking 
proceeding, then we will see where that all goes.
    Mrs. Dingell. I am paying attention.
    Thank you, Mr. Chairman.
    Mr. Knapp. Thank you.
    Mr. Doyle. The gentlelady yields back. The Chair now 
recognizes Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you all for being here today.
    I am from Missouri, and another Missourian, Mark Twain, his 
publicist telegraphed him one day. And if you don't know what a 
telegraph is, Google it.
    [Laughter.]
    But he telegraphed him one day and he said, ``Need 2 pages 
2 days.''
    Twain replied back, ``No can do 2 pages 2 days. Can do 30 
pages in 2 days. Need 30 days to do 2 pages.''
    So, I have spent the last 2 days coming up with 30 
questions for you all.
    [Laughter.]
    And after sitting here all morning and hearing the 
questions hashed and rehashed, I am down to one.
    [Laughter.]
    So, I want to ask one question. I am going to yield back a 
lot of my time here in just a second.
    Mr. Doyle. Good.
    Mr. Long. What do you mean ``good''? I wasn't talking to 
you.
    [Laughter.]
    Mr. Knapp, the 24 gigahertz band represents critical 
spectrum that could be used to implement 5G technology. And the 
Commission recently concluded a successful auction of that 
spectrum. But now, at the 11th hour, objections to the use of 
the band have been raised by some Federal agencies. Were any of 
these objections raised on the record during the rulemaking 
process that resulted in the allocation of spectrum for 
commercial use?
    Mr. Knapp. No.
    Mr. Long. I yield back.
    Mr. Khlopin. Can I, Congressman, to that question--I would 
just, yes, disagree with Mr. Knapp's answer that the concerns 
were not expressed.
    Mr. Long. Thank you. Do you have anything else to add? I'm 
sorry I didn't----
    Mr. Khlopin. No, I just wanted to state that, in the 
interagency coordination process, the concerns over protecting 
the passive centers was clearly raised and reflected in FCC 
documents.
    Mr. Long. Care to comment, Mr. Knapp, or?
    Mr. Knapp. Sure.
    Mr. Long. And I will rescind my yield back.
    [Laughter.]
    Mr. Knapp. The objection, I think, as Mr. Khlopin said 
before, was not to allocating or using the spectrum for 5G. The 
question was about the upcoming World Radio Conference and what 
limits might come out of that. And the Commission's decision 
recognized that and said it was open if there was submittal of 
validated studies about a different out-of-band-emissions 
limit.
    Mr. Khlopin. You know, I agree with that statement.
    Mr. Long. OK. Now, Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Lujan for 5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Mr. Knapp, I want to start by reading a section of your 
testimony that I especially appreciated regarding 5G. You say, 
I quote, ``Each generation of wireless services brought with it 
new opportunities for innovation, enhanced the safety of our 
citizens, new businesses, and job creation, and improved our 
overall quality of life. If you ask 5 people what 5G is, you 
will probably get 6 different answers. Yet, most seem to agree 
on certain important aspects of 5G's potential--speeds 100 
times faster than today's networks, much greater capacity, and 
lag times one-tenth of what they are today that enable real-
time interactions with people and the Internet of Things.'' 
Close quote.
    That sounds great, but here is the thing. Too many 
communities that I represent are still waiting for 4G, rural 
parts of America. And according to the FCC, less than half of 
New Mexicans have access to mobile broadband that reaches 10 
megabits, 3 megabits upload.
    Regarding Tribal communities, the 2018 GAO report on Tribal 
access to spectrum stated that, I quote, ``The FCC has not 
collected data related to Tribal access to spectrum, analyzed 
unused license spectrum that exists over Tribal lands, or made 
data available to Tribal entities in an accessible and easy 
manner that could be beneficial in their efforts to obtain 
spectrum licenses from other providers.'' Close quote.
    What progress has the FCC made in addressing these issues?
    Mr. Knapp. So I think what you saw reflected in the 2.5 
gigahertz decision last week was a priority for, first, access 
for Tribal nations to that spectrum as a way to encourage the 
coverage in that. And we are also working across a number of 
fronts on better collection of information on the availability 
of service and policies that can support that deployment.
    Mr. Lujan. Can I get a commitment today, Mr. Chairman and 
Mr. Knapp, that we can work together to raise this issue and 
work with other FCC Commissioners and staff to ensure that, 
when we are here in a year from now, that we will not have a 
GAO report that says the FCC has not collected data related to 
Tribal access to spectrum?
    Mr. Knapp. So I know that the Commission will continue to 
work with you on the deployment to rural areas.
    Mr. Lujan. Can we work together to raise the issue, though?
    Mr. Knapp. Sure.
    Mr. Lujan. I appreciate that.
    Mr. Knapp, I have also repeatedly heard concerns that 5G 
networks may not reach rural and Tribal communities for years. 
What specifically is the FCC doing to prevent the creation of 
what I will describe as the new digital divide?
    Mr. Knapp. Yes, and the deployment of 5G into the rural 
areas is also one of our key objectives. The low bands that we 
have been talking about are probably the best vehicle, although 
all of the bands will be woven together to provide that 
coverage, so it is not necessarily just any one. And so, what 
we are trying to do is make sure there is spectrum out there 
and that people will have access to it.
    Mr. Lujan. I appreciate that. When we had Commissioner Pai 
and Commissioner Rosenworcel before us, we asked a question to 
them about mapping, that if we, indeed, were going to be able 
to make investments to close the digital divide, we needed to 
have more accurate mapping. Is there something that we could be 
doing, working with you as well and with the other 
Commissioners, to ensure that we have accurate maps as opposed 
to being dependent on what some of the mobile providers are 
putting out there that show that there is coverage everywhere?
    Mr. Knapp. Yes.
    Mr. Lujan. Matter of fact, if I went by their maps, all the 
dead spots that exist in New Mexico and other parts of the 
country that I have traveled should have coverage, but they 
don't. Just because someone's measurement of a bar on my phone 
to them means coverage, I can't make a call, can't use the 
internet, can't even use that phone if there was an AMBER Alert 
to let me know that I should be looking for somebody. What can 
we be doing to better close that divide to ensure that this is 
going to get out?
    Mr. Knapp. Of course, we would be happy to work with 
Congress, providing technical assistance for anything that 
Congress wanted to take a look at. We are working hard at the 
agency on ways we can improve the maps. We know that they need 
to be better.
    Mr. Lujan. I appreciate that.
    Chairman, I thank you for your support with this important 
hearing. And to my colleagues on both sides of the aisle, I 
have been stepping up to make sure that we are able to close 
these divides across the country and make use of spectrum as 
well. Thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman, and I have appreciated 
this hearing and the witnesses who have been here.
    Mr. Knapp, I want to echo the comments of Ms. Dingell 
regarding the 5.9 gigahertz part of the spectrum. I am also 
concerned about any attempts to make that spectrum or to keep 
that spectrum from being able to the transportation sector.
    I think one of the reasons we have a slow adoption was 
nobody dreamed 20 years ago about autonomous vehicles, number 
1. And number 2 is the FCC set the standard, the DSRC standard, 
which maybe it shouldn't have done then. It should have made it 
available to the ecosystem to develop its own standard.
    So, (A) I am glad the FCC is doing the NPRM on this issue, 
but (B) I encourage the FCC to look at this carefully, so that 
it allows the autonomous vehicle space, that ecosystem, a 
chance to grow into it to fill that spectrum up before that 
spectrum is given away. So, I encourage you to be very careful 
about that, as part of that NPR-A. And you may want to consider 
getting rid of the DSRC standard, since it hadn't been widely 
adopted, so that the stakeholders in the space will develop the 
standard that works.
    I know you have talked about Cellular Vehicle-to-Everything 
technologies, but one of the challenges there is the latency 
that comes by going to cellular, then back to go somewhere 
else, and then come back to the vehicles, when really we need 
to make sure that we allow for vehicle-to-vehicle 
communications using that set of spectrums.
    So, again, I am glad you are doing the NPRM, but (B) Ms. 
Dingell and I, and others, will be paying close attention to 
that because there are important stakeholder interests that are 
involved in that space.
    Mr. Khlopin, as you know, the President recently announced 
his Memorandum Developing a Sustainable Spectrum Strategy for 
America's Future. A key part of that strategy is to protect the 
homeland, but part of the protecting the homeland is also to 
make sure that we have proper cybersecurity elements built into 
the Internet of Things and to other ways to close off 
vulnerabilities that may exist, as we begin to move forward 
with that memorandum.
    Can you expand on the administration's strategy in this 
regard to keep the cyber vulnerability low in the Internet of 
Things, as part of the memorandum?
    Mr. Khlopin. Sure, and thank you. Thank you very much for 
the question.
    Again, I will preface this by focusing a little more on the 
spectrum side. And I think the way we are viewing the National 
Spectrum Strategy is, while considering the security issues and 
the national security considerations, a little more directly on 
spectrum management. And then the administration has a number 
of other interagency activities to implement: the national 
security strategy, cybersecurity strategy, and those type of 
issues. So, while there is an overlap, and I think increasingly 
going forward on the spectrum side we do need to consider that, 
I think that the spectrum strategy is a little less focused on 
that.
    On the bigger issues there, on IoT security and 5G 
security, I think probably my best response would be to come 
back to you on that and maybe welcome a dialog with you and 
your staff.
    Mr. Flores. That would be great. And when we do that, we 
would like to talk about working with industry experts on this 
issue as well.
    Mr. Knapp, one of the things I was excited to hear about is 
what used to be a spectrum wasteland, and that is 95 gigahertz 
and above. In the hearing the FCC had, tell us about some of 
the things that may be available using that set of spectrum. 
Mr. Khlopin, I will come to you and see if we have got any 
incumbents in that area that we have to worry about.
    Mr. Knapp?
    Mr. Knapp. So I think back to when we opened up the 
spectrum in 1985 for what we called spread spectrum.
    Mr. Flores. Right.
    Mr. Knapp. It was a dozen years before we saw Wi-Fi. So, 
what we have really done here is opened up a huge amount of 
space for people to be creative and innovate. There is work 
going on around the world looking at different potential 
applications, potentially improved security applications, and 
so forth. I think it is a little early to tell. These signals 
tend to be very pinpoint.
    Mr. Flores. Right.
    Mr. Knapp. They don't go very far, but they have got huge 
bandwidth.
    Mr. Flores. And they are attenuated by almost everything.
    Mr. Knapp. Yes.
    Mr. Flores. As a geek, I am pretty exited about it.
    Mr. Knapp. Yes, if you put your hand up in front, they 
stop.
    Mr. Flores. Yes. I am hopeful that we can get something 
done.
    Mr. Khlopin, are there any incumbents that are potentially 
damaged by opening up the 95 gigahertz part of the spectrum?
    Mr. Khlopin. Of 95 and above? That is why I would have to 
come back and probably get a little more details on that. Are 
you looking anywhere above 95, or what are you----
    Mr. Flores. Well, there is 21 gigahertz from 95 and above 
that has been opened up by the FCC. I just want to make sure we 
haven't damaged any incumbent users.
    Mr. Khlopin. Yes, and I know when the FCC does these 
proceedings, again, they coordinate through the IRAC, through 
the agency processes. So, we did have comments back to the FCC 
I believe were largely incorporated.
    Mr. Flores. Very good. Thank you. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Engel for 5 minutes.
    Mr. Engel. Thank you, Chairman Doyle, Ranking Member Latta.
    I would like to address the T-band. The T-band is radio 
spectrum located on portions of the 470 to 512 megahertz band. 
For decades in 11 major metropolitan areas around the country, 
the T-band has supported vital public safety radio 
communications for our first responders. It allows police, 
firefighters, and EMS to communicate, even when cell towers, 
electricity, or the internet are down. It functions deep 
underground in tunnels and inside concrete buildings. But now, 
thanks to an outdated provision in the law, the FCC is required 
to reallocate and auction the T-band spectrum by 2021.
    I have heard from my constituents back home in New York, in 
Westchester and the Bronx, that this auction would endanger 
crucial public safety communications. Options to replace the 
spectrum are extremely limited. New York City police, fire, and 
emergency management departments have said that there is no 
alternative spectrum available for them. Further, GAO completed 
a study last month which found that auctioning off the T-band 
radio spectrum without the availability of alternative spectrum 
would definitely jeopardize public safety in major metropolitan 
areas around the country.
    Mr. Knapp, let me ask you: Are you familiar with the GAO 
study on the T-band? Do you have any reason to doubt its 
conclusion or that of the New York City police, fire, and 
emergency management departments that auctioning off the T-band 
could jeopardize public safety in some of the Nation's largest 
metropolitan areas?
    Mr. Knapp. So I have been involved, obviously, with a lot 
of things at the agency, but, actually, it has been our Public 
Safety and Homeland Security Bureau that has been lead on this, 
and I am not familiar with the report.
    Mr. Engel. OK. Well, trust me, what I am saying is 
accurate, and it is really very, very worrisome. The GAO also 
concluded that, even if alternative available spectrum were 
available, public safety users are likely to bear significant 
costs associated with relocating and reestablishing 
interoperability. The National Public Safety Telecommunication 
Council, which is NPSTC, calculated in 2013 and again in 2016 
that the cost of relocating public safety options off the T-
band would be $5.9 billion. In early 2019, the FCC also placed 
the total cost between 5 billion and 6 billion.
    So, Mr. Knapp, the same question, probably the same answer: 
Do you have reason to doubt the members from the NPSTC or the 
FCC on the enormous costs associated with reallocating and 
auctioning the T-band spectrum?
    Mr. Knapp. Yes, I haven't been involved. So I can't comment 
either way.
    Mr. Engel. OK. Well, we are going to have to follow this 
up.
    To deal with this problem, the GAO concluded that Congress 
should pass legislation allowing first responders to continue 
using the T-band radio spectrum. I wrote a bill last year with 
Mr. Zeldin and others. We call it the Don't Break Up the T-Band 
Act, which would allow law enforcement, fire officials, and EMS 
to continue using the T-band. A companion bill was later 
introduced in the Senate. Neither of these bills got a vote 
last Congress, but I have reintroduced the bill with Mr. Zeldin 
and others again this Congress. It is H.R. 451. Our bipartisan 
legislation is backed by law enforcement and fire department 
officials from different jurisdictions across the country, and 
it is my hope that we will move this critical bill forward and 
allow our first responders to continue using the T-band 
spectrum to communicate effectively and keep us safe.
    And if anyone cares to comment on it? I will just leave my 
statement the way it is.
    Thank you, Mr. Chairman.
     Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Ms. Brooks for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And thank you both for being here today.
    I cofounded, actually with Congresswoman Debbie Dingell, 
the House 5G Caucus. And so my questions are focused more on 
5G.
    A recent Defense Innovation Board study highlighted mid-
band frequencies below 6 gigahertz as critical to America's 
competitiveness in 5G. And the New Citizens Broadband Radio 
Service at 3.5 gigahertz has great potential for delivering 5G 
services in this critical mid-band spectrum. I understand that 
network and consumer equipment or available systems needed to 
manage are built and are just waiting for the FCC go-ahead.
    So, can either of you speak to what is causing the delay in 
getting the CBRS launched for commercial use? I would be 
interested in both your perspectives.
    Mr. Knapp. Yes. So I think we are very close. Just to 
clarify a couple of points, that sharing to protect the Navy 
radars is based on a computer system, a spectrum access system. 
So, when the ships are close by, the devices get out of the 
way. They just use other spectrum.
    These spectrum access systems are developed in the private 
sector. They have just gone through a cycle of tests out at the 
NTIA labs in Boulder, Colorado. They have completed the tests. 
The test reports haven't come yet to FCC. We expect them very 
soon.
    Mrs. Brooks. OK.
    Mr. Knapp. Once we have that, once we have the controlling 
element to make all of this work, then we will be ready to move 
ahead with the initial commercial developments, the ICDs. We 
already have proposals for it. Everybody is excited about it. 
It is a way to just kind of kick the tires before we go full 
bore nationwide, but we are pretty close.
    Mrs. Brooks. Thank you.
    Mr. Khlopin, anything you want to add?
    Mr. Khlopin. No, I certainly agree with 100 percent of what 
Mr. Knapp said. And again, it is a complex system, both on the 
technology side, even the licensing side, ultimately, to have 
some priority access licenses and general authorized access. So 
a lot of moving parts here.
    I think what we are really excited about, though, is the 
dynamic sharing here ultimately. When we started this process, 
we were looking at drawing a large circle of exclusion zones 
for the Navy radars, and now we are moving, hopefully, to where 
it is a much more dynamic sharing and the spectrum can be used 
more efficiently.
    Mrs. Brooks. But, as we talk about the delay, and while you 
say ``very close,'' are we talking about this calendar year 
possibly or are we not?
    Mr. Knapp. We had better be.
    Mrs. Brooks. OK.
    Mr. Knapp. I think we are talking, you know, hopefully, 
within a couple of months.
    Mrs. Brooks. OK.
    Mr. Knapp. I can't nail that because it depends that there 
are no surprises that crop up in the review.
    Mrs. Brooks. Right.
    Mr. Knapp. But we are just as eager as everybody to get 
this up and running.
    Mrs. Brooks. OK. Thank you.
    I want to go to something that I think some of my 
colleagues have talked about, and that is the race that we all 
hear about, the U.S. leading the race in 5G. And I am really 
proud the city of Indianapolis was actually the first city 
where both AT&T and Verizon built out, and we are doing 
development testing. And it is very exciting to be one of the 
first cities and to be the first city in the country.
    But then I recently saw--and it has been talked about--the 
RT story, the Russian network spreading propaganda about the 
dangers of 5G and causing dire health effects, including brain 
cancer. But yet ironically, in Russia, it is my understanding 
from this New York Times article, that they are actually 
talking about the health benefits of 5G. And so, health 
benefits versus here, you know, spreading information to our 
citizens and those here in our country about all the health 
dangers. And then, someone has called it economic warfare.
    Are you familiar with this story? And can you comment? Can 
you comment on it? Mr. Knapp?
    Mr. Knapp. So, familiar with the story. What I will tell 
you is we have RF exposure limits in place----
    Mrs. Brooks. OK.
    Mr. Knapp [continuing]. That go all the way up to 100 
gigahertz.
    Mrs. Brooks. OK.
    Mr. Knapp. We are not a health agency. We work closely with 
other agencies, particularly the FDA. The FDA issued a 
statement last year that the existing standards--they reviewed 
all of the science--the existing standards should remain in 
place without major change. We also have an open proceeding. We 
are working hard to try and get next steps out on that as well. 
There is also a lot of work going on in the Institute of 
Electrical Engineers and another group called ICNIRP. I won't 
go through the acronym. But it includes scientists, and they 
are updating the standards a bit, but there is not a major 
change in what the standards are. It has more to do with test 
procedures and things like that.
    Mrs. Brooks. But I think what you are saying is that the 
health professionals are also engaged in this as well.
    Mr. Knapp. Yes, absolutely.
    Mrs. Brooks. Thank you. I yield back.
    Mr. Doyle. The gentlelady yields back. The Chair recognizes 
Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    If there is one thing that is positive about being toward 
the end of the line here, you get a chance to hear all the 
testimony. And with what has been discussed here today, I think 
there is an important trend that we fully need to consider, and 
that is the fact that new services drive new demand. It is very 
clear, and I appreciated your comments earlier on that.
    Mr. Knapp, given this demand, it is clear that everyone is 
going to have neighbors in their respective bands. The easy 
decisions probably are over. And as you know, the FCC is 
required to protect from harmful interference. So, let me ask 
you, what does the FCC look at when making those determinations 
of what constitutes harmful interference?
    Mr. Knapp. I am thinking people have been trying to define 
harmful interference for as long as we have been in existence. 
So, here is the rub of it: Technically, it is interference that 
would disrupt the service, cause it to go off the air.
    A lot of the debates center around things like not whether 
your device is operating or it is giving you the wrong 
information, but whether the noise level in the background 
rises above a particular point that under the worst set of 
conditions you might not be able to get a connection. So in our 
rulemakings we invite studies. We do an analysis of everything 
that has been submitted to come up with what we believe is a 
reasonable protection level that is not going to disrupt 
services.
    Mr. Walberg. Do you account for legacy systems that may be 
less spectrally efficient?
    Mr. Knapp. Yes. The one point I will get to is, if we have 
an outlier that is a system that really is operating far 
outside of its lane, the question--and it depends what it is 
and how many people have got it, and what the extent of 
deployment is. It may not be appropriate to have one outlier 
drive prevention of access to spectrum.
    Mr. Walberg. OK. Mr. Khlopin, are there things we need to 
do on the Federal side to improve incumbents' efficient use of 
the spectrum?
    Mr. Khlopin. Sure, and thank you for the question. I think 
that is an ongoing question that I am sure this committee, 
Congress, and NTIA, and others have asked for years.
    Yes, we are always interested in more efficient spectrum 
use. And I think sometimes the agencies' use can be 
mischaracterized as inefficient. I will give an example of 
spectrum bands. When we did the AWS look, we realized there 
were--I don't know--15, 16, 17, 18, many different Federal 
systems operating who actually already share spectrum today. So 
in some ways there is a lot of innovation on the Federal side 
because we cram a lot of Federal agency use into frequency 
bands.
    Having said that, we know there are always opportunities to 
be more efficient. And part of the challenges are that, from 
any agency perspective, they are mission-driven, right? They 
are not driven to be especially efficient for the sake of the 
good of the order, right? I mean, they are driven to accomplish 
their mission, and Congress wants them to accomplish their 
mission.
    So it is sort of aligning where those incentives are, how 
we get a framework. And again, I will come back to the National 
Spectrum Strategy, where we are trying to determine how we do 
those processes better, how we incentivize agencies, and how 
collectively we do a better job of that.
    Mr. Walberg. OK. Thank you.
    Mr. Knapp, in cases where incumbents claim new entrants may 
harmfully interfere with their existing systems, how does the 
FCC weigh the criticality of certain services like providing 
for public safety?
    Mr. Knapp. So public safety is always going to be a prime 
concern for the Commission, to make sure that it is protected. 
So, if we are looking at something where we think there would 
be a risk of interference to public safety, we try to figure 
out a way that we can make sure they are protected.
    Mr. Walberg. To what extent can interference concerns be 
allayed without testing?
    Mr. Knapp. So in some cases testing is appropriate. I think 
the one thing you have to be a little bit concerned about, that 
testing doesn't become a way to delay implementation of a new 
service. I mean, for many years, the Commission has acted 
without having to have tests in every case, just based on the 
analysis of what we have in the record. And there are times 
where, for example, in the white spaces and unlicensed, and in 
the sharing with the Intelligent Transportation Services, where 
to get a better understanding we had to do tests.
    Mr. Walberg. OK. Thank you, and I yield back.
    Mr. Doyle. The gentleman yields back. Last, but certainly 
not least, Mr. Gianforte, you have 5 minutes to wrap it up.
    Mr. Gianforte. Thank you, Mr. Chairman.
    And thank you for the panelists today.
    My concern is rural deployment, being from Montana. We 
recently had Commissioner Carr. I was there with him, and I 
applaud him. He has been to 30 States as FCC Commissioner, 
experiencing on the ground. And he shared with me that Montana 
is probably worst of all 30 States he has been in for cell 
phone coverage.
    So what we do related to 5G is critically important. 5G 
will come to rural America if, and only if, these spectrum 
bands are available. My understanding is that mid-band spectrum 
is particularly important here. I am an electrical engineer. I 
can follow most of the discussion we are having. High-frequency 
spectrum has a very short range and is less suited for rural 
communities. Lower frequencies have better range, but 
challenges on throughput. This is why mid-band is so important, 
and of course you know this.
    Mr. Knapp, we heard that a critical input for 5G is mid-
band. I find it interesting that China has deployed 100 
megahertz to multiple providers, giving each one of their 
state-owned carriers a 100 megahertz band, while here in the 
U.S. we have only allocated 70 megahertz of licensed spectrum, 
and this hasn't been auctioned off yet.
    You have spoken about this today, but could you just for 
the record talk about when can we expect this spectrum to get 
to market?
    Mr. Knapp. Yes, absolutely. So let me just try to run 
through it fast and break it into pieces. So we talked about 
2.5 and things we have tried to do on the policy side to make 
that more flexible. Then you start moving up. You have got the 
NTIA studies with DoD of 3.1 to 3.45 or 3.55. So they are 
looking mostly at the upper 100 megahertz of that. Then, we 
have got our Citizens Broadband Radio Service. The 70 that you 
are referring to, it is actually 150 megahertz that is 
available to everybody under kind of an unlicensed model. The 
70 megahertz is what we are going to be auctioning next year. 
And there was a lot of interest from rural folks in that 
spectrum as well.
    Then we come up to the C-band at 3.7 to 4.2. Why, when you 
look at China? We have deployments in a lot of this spectrum, 
whereas China may not. We also are accommodating a lot of 
missions on the Federal side that are very important as well, 
probably more than anybody else in the world. So, it is 
sometimes a bigger challenge for us in accomplishing these 
transitions. But we have got a lot of activity going on trying 
to make mid-band available.
    Mr. Gianforte. OK. And so, you mentioned C-band. I am 
interested in learning more about your efforts around the 
reallocation of C-band. As you consider the best way to 
reallocate this in a timely manner, I understand that, if it is 
a private sale, there are really no buildout requirements. Is 
that correct for rural America?
    Mr. Knapp. So this is an open proceeding. We are still 
getting new ideas seemingly every day to look at. So I know 
that the Chairman and Commissioners are considering everything 
that is being presented to them. So nothing has really been 
decided at this point.
    Mr. Gianforte. So, in fact, there may be buildout 
requirements attached to transfer of C-band?
    Mr. Knapp. I think all of these issues are part of the 
package.
    Mr. Gianforte. And just for the record, I want to just 
reiterate that, as we make spectrum available for 5G, if in 
part it is through private sales, we have to keep in mind that 
rural America wants to participate, and without buildout 
requirements that would be difficult.
    There are entities using parts of that band today. And we 
have got to really be conscious of these areas of the country 
where the buildout is not as economically viable. That is why 
places like Montana lag behind. What else can we do to make 
sure that we get buildout in these rural areas?
    Mr. Knapp. Yes. So I have referred kind of earlier to more 
on the policy side. We have actually had our Technological 
Advisory Council looking at what we could do on the technical 
side, and it often comes down to money. And so I think there is 
a lot going on on the policy side that I am not directly 
involved in to try to make sure that that happens.
    Mr. Gianforte. OK. Well, we want to continue to work 
together to close this digital divide so we can have rural 
health care, education, and, of course, economic development. 
It is critically important.
    So, again, I thank you.
    And with that, Mr. Chairman, I yield back.
    Mr. Khlopin. Could I make just a quick comment, 
Congressman?
    Mr. Doyle. Sure.
    Mr. Khlopin. Congressman, I just wanted to offer, too, from 
the NTIA perspective, outside of spectrum we are doing a lot of 
work there that I think you would appreciate. The American 
Broadband Initiative and the administration is looking at these 
obstacles in rural areas, in particular. And part of this is an 
acknowledgment that the Federal Government is actually a large 
landowner. So we are looking at ways to improve access to 
Federal facilities, including Federal fiber networks. So there 
are a lot of opportunities there as well.
    And also, as is the Commissioner, we are looking at the 
mapping opportunities that I think would be helpful as well.
    Mr. Gianforte. OK. Thank you.
    Mr. Doyle. Well, that concludes our first panel. I want to 
thank our witnesses for joining us today.
    I would also ask that each witness respond promptly to any 
questions for the record that you receive from our Members 
following this hearing.
    Mr. Doyle. So thank you very much for being here today.
    At this time, I would ask the staff to prepare the witness 
table such that we may begin our second panel shortly.
    [Recess.]
    Mr. Doyle. OK. We are going to ask the second panel to come 
forward and take their seats.
    OK. We will now hear from a second panel of witnesses on 
this important issue. Those witnesses include Mr. Jeffrey 
Cohen, chief counsel at APCO International; Mr. Michael 
Calabrese, Director of Wireless Future Project at the Open 
Technology Institute at New America; Ms. Mariel Triggs, chief 
executive officer of MuralNet; Mr. Tim Donovan, senior vice 
president of legislative affairs at the Competitive Carriers 
Association; Mr. Scott Bergmann, senior vice president of 
legislative affairs at CTIA; Mr. Peter Pitsch, head of advocacy 
and government relations for the C-Band Alliance.
    We want to thank all of our witnesses for joining us today. 
We look forward to your testimony. We will recognize each 
witness for 5 minutes to provide their opening statement.
    And since you were probably all sitting here for the first 
panel, you know about the lighting system. So when that light 
turns yellow, wrap up your remarks. And when it turns red, 
please finish up.
    So, Mr. Cohen, we will start with you. You are recognized 
for 5 minutes.

 STATEMENTS OF JEFFREY S. COHEN, CHIEF COUNSEL AND DIRECTOR OF 
 GOVERNMENT RELATIONS, APCO INTERNATIONAL; MICHAEL CALABRESE, 
DIRECTOR, WIRELESS FUTURE PROJECT, OPEN TECHNOLOGY INSTITUTE AT 
NEW AMERICA; MARIEL TRIGGS, CHIEF EXECUTIVE OFFICER, MURALNET; 
   TIM DONOVAN, SENIOR VICE PRESIDENT, LEGISLATIVE AFFAIRS, 
 COMPETITIVE CARRIERS ASSOCIATION; SCOTT BERGMANN, SENIOR VICE 
    PRESIDENT, REGULATORY AFFAIRS, CTIA; AND PETER PITSCH, 
EXECUTIVE VICE PRESIDENT, ADVOCACY AND GOVERNMENT RELATIONS, C-
                         BAND ALLIANCE

                 STATEMENT OF JEFFREY S. COHEN

    Mr. Cohen. Chairman Doyle and Ranking Member Latta, members 
of the subcommittee, thank you for the opportunity to appear 
before you today on behalf of APCO International. Founded in 
1935, APCO was the world's largest and oldest organization of 
public safety communications professionals, with over 33,000 
members. I serve as APCO's chief counsel and director of 
government relations. It is an honor to be back before this 
subcommittee.
    For many decades, public safety professionals have relied 
upon the availability of dedicated and interference-free 
spectrum for mission-critical communications ranging from 
essential 9-1-1 dispatch operations to radio communications 
among police, fire, and EMS responders.
    Today, I will address three spectrum matters of pressing 
concern: the 6 gigahertz band, the T-band, and the potential of 
5G technology.
    Beginning in August 2017, the FCC began to explore the 
potential of introducing new, unlicensed operations into the 6 
gigahertz band. This band is heavily encumbered by public 
safety for extremely reliable, fixed, point-to-point microwave 
links support backhaul for 9-1-1 dispatch and first responder 
radio communications.
    The plan advanced by the unlicensed community for sharing 
this band could result in the deployment of hundreds of 
millions of unlicensed devices, many of which would be managed 
by an automated frequency coordination mechanism. This has left 
APCO concerned because, if the sharing mechanism fails or 
consumers or equipment manufacturers disable or misuse the 
mechanism, or devices are allowed to operate outside the 
control of the mechanism, there is no way to reverse the 
resulting interference. There will be hundreds of millions of 
unlicensed devices out in the stream of commerce, and when 
interference occurs, that would mean the irreparable loss of 
communications critical to public safety.
    Switching over the T-band, this spectrum is located in 
portions of the 470 to 512 megahertz band, available in 11 
metropolitan areas, available for public safety use. The 2012 
spectrum legislation requires the FCC to reallocate and auction 
the spectrum by February 2021. With nowhere for public safety 
to move, Congress should repeat this provision. Further, there 
has been little, if any, interest expressed by potential 
bidders for this spectrum.
    I would like to acknowledge Congressman Walden, who has 
been engaged in this matter and which we appreciate. Also, the 
International Association of Fire Chiefs has been at the 
forefront of representing the interests of public safety on 
this important topic.
    Finally, I would like to turn to the potential benefits to 
public safety of 5G technologies. First, 5G can provide 
wireless carriers with more options to improve location 
accuracy for 9-1-1 callers. For example, in-home and in-
business products can provide dispatchable location quality 
information, meaning the street address of the building plus 
the room, suite, or apartment number. We encourage service 
providers to more actively leverage 5G and tools in their 
current networks as a 9-1-1 location solution.
    5G can also contribute to significant advances in wireless 
emergency alerts. The platform currently used by the wireless 
industry is outdated. Ongoing enhancements to wireless networks 
such as 5G present new opportunities to enhance public safety 
features.
    Finally, if we don't upgrade the Nation's 9-1-1 systems, 5G 
will never reach its full potential. While 5G will tremendously 
enhance the communications capabilities of the general public 
and first responders, it will only further widen the gap 
between those capabilities and what is possible for 9-1-1. 
Unless we modernize the 9-1-1 system, all these innovations are 
lost at the door of the 9-1-1 center.
    While I am discussing 9-1-1, I would like to specifically 
thank Representatives Eshoo and Shimkus for their bipartisan 
work to introduce the Next Generation 9-1-1 Act of 2019, and to 
Chairman Pallone for including the provisions of this bill into 
the LIFT America Act. This legislation would modernize 9-1-1 in 
an innovative, interoperable, effective, and efficient manner 
while preserving State and local control over 9-1-1 operations, 
which are all goals that we fully support.
    Again, I thank you for the opportunity to testify and 
present APCO's views. I look forward to any questions. Thank 
you.
    [The prepared statement of Mr. Cohen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Cohen.
    Mr. Calabrese, you are recognized for 5 minutes.

                 STATEMENT OF MICHAEL CALABRESE

    Mr. Calabrese. Good afternoon. My name is Michael 
Calabrese. I direct the Wireless Future Project at New 
America's Open Technology Institute.
    There are two fundamental reasons we believe it is critical 
to make substantially more mid-band spectrum available on a 
licensed, unlicensed, and shared basis. The first is that the 
most robust 5G wireless ecosystem will not be built out by 
mobile carriers alone on exclusively licensed spectrum. Like 
today's 4G ecosystem, America's 5G wireless future will rely on 
carrier networks for mobile, on-the-go use, but also on many 
thousands of complementary, high-capacity Wi-Fi, private LTE, 
and other networks deployed by individual enterprises and 
households.
    A second reason we need more unlicensed and shared spectrum 
is the critical need to assist rural and low-income communities 
that find themselves on the losing side of the digital divide. 
At least 20 million Americans, including 1 in 4 rural 
residents, still lack access to basic broadband service. More 
unlicensed and shared mid-band spectrum can serve as the public 
infrastructure that enables high-speed broadband in underserved 
areas at a fraction of the cost of trenching fiber.
    One historic step in this direction is the new Citizens 
Broadband Radio Service. By using dynamic database 
coordination, CBRS allows private operators to share this 
underutilized band with the military, fully protecting Navy 
radar from interference.
    Immediately above the CBRS band is C-band. We support the 
FCC's proposal to combine clearing and sharing in C-band to 
achieve three vital, public-interest outcomes: first, to 
reallocate a large portion of the band for mobile 5G; second, 
to enable shared use of unused C-band spectrum for high-speed, 
fixed wireless service in rural, small town, and other 
underserved areas; and third, to protect existing earth 
stations from harmful interference.
    Consumer and taxpayer advocates remain concerned, however, 
that the FCC continues to consider proposals for a private 
auction that would needlessly transfer 10 to 30 billion dollars 
or more to four foreign satellite companies that never paid for 
the public airwaves they use. A private auction would violate 
Section 309(j) and willfully ignore congressional intent and 
precedent.
    When the TV bands at 700 and, later, 600 megahertz were 
consolidated for auctions that raised $20 billion each, 
Congress twice passed legislation ensuring that local TV 
stations would receive either no windfall or, at most, 
incentive payments limited by a competitive reverse auction. 
Just as Congress in 2012 designated $7 billion to fund 
FirstNet, Congress should require a public auction and 
designate $10 billion or more to pay for rural broadband 
infrastructure.
    The FCC should hold a traditional public auction that 
consolidates existing earth stations into the upper portion of 
the band and requires auction winners to reimburse incumbents 
for reasonable costs. Congress should also direct the FCC to 
authorize coordinated shared access to unused spectrum across 
the entire C-band to support broadband buildout in rural and 
underserved areas.
    Moving up in frequency, OTI commends the FCC for its 
pending proposal to open the 5.9 and 6 gigahertz bands to fuel 
Next Generation Wi-Fi. Wi-Fi today makes broadband connectivity 
more available, productive, and affordable for all. Next Gen 
Wi-Fi can likewise make 5G capabilities immediately available 
to all homes and businesses in rural, small town, and exurban 
areas that may not see mobile carrier 5G for many years.
    The FCC's pending proposal for unlicensed sharing across 
the entire band, 1200 megahertz in total, deserves your full 
support. The FCC's proposed rulemaking has one critical 
shortcoming, however. Consumer, rural, and high-tech advocates 
have urged the Commission to authorize lower-power, indoor-only 
unlicensed use across the entire 1200 megahertz without the 
added cost of database coordination.
    Finally, concerning 5.9 gigahertz, we encourage Members to 
urge the FCC and DOT to move forward to determine a way 
consumers can benefit from both vehicle safety communications 
and Next Gen Wi-Fi. Authorizing unlicensed use of the 5.9 
gigahertz band is key to removing the roadblock to a Wi-Fi 
superhighway. The FCC should move forward and consider whether 
another band, such as the nearly vacant 4.9 gigahertz public 
safety band, could be equally or more useful for vehicle safety 
integrated with 4G networks.
    Thank you.
    [The prepared statement of Mr. Calabrese follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Calabrese.
    Ms. Triggs, you are recognized for 5 minutes.

                   STATEMENT OF MARIEL TRIGGS

    Ms. Triggs. Thank you. Good afternoon, Chairman Doyle, 
Ranking Member Latta, and members of the subcommittee. My name 
is Mariel Triggs, and I am the CEO of MuralNet, a young 
nonprofit dedicated to helping Tribal nations build wireless 
internet networks.
    I am here to tell you the story about how the Havasupai 
Tribe, MuralNet, and local partners brought high-speed internet 
service to the bottom of the Grand Canyon, and how spectrum 
acquisition was the biggest challenge time and time again.
    As schools increase their internet connectivity, teachers 
assign more online homework. In order to meet academic 
expectations, students with no access to sufficient internet at 
home have to go to extreme measures, such as working out of a 
McDonald's parking lot to pick up Wi-Fi. Rural areas are hit 
hard, with only 60 percent of homes having broadband access, 
and on Tribal lands that number is halved to 30 percent.
    Martin Casado, the father of software-defined networking, 
and Brian Shih, an expert in E-rate policy, wanted to address 
the homework gap on Tribal lands. In February of 2017, they 
founded MuralNet. LTE technologies had matured, so equipment 
was cheap, reliable, and could be easily installed on existing 
structures. Network management platforms used to be 
prohibitively expensive, but now there were free open-source 
software stacks in beta phase. Many anchor institutions already 
were connected to fiber.
    The remaining hurdle was spectrum for that last mile to 
homes, and educational broadband service spectrum in the 2.5 
gigahertz range was perfect. It could travel far, penetrate 
trees, had high throughput, and was protected from interference 
through licensing. But applications have been frozen since the 
mid-nineties, and we worked to find a solution.
    In the spring of 2017, Dr. Chad Hamill of Northern Arizona 
University vetted MuralNet and connected us with Councilwoman 
Ophelia Watahomigie-Corliss of the Havasupai Tribe. The village 
of Supai is home to about 400 members and is located at the 
bottom of the Grand Canyon. Travel there requires a helicopter 
or an 8-mile hike through difficult terrain.
    We asked the FCC for special temporary authorization to use 
EBS-A channels over Supai. We thought it would take 2 weeks for 
approval, but it actually took 4 months. In February of 2018, 
the Havasupai Tribe was granted access, and within a few days 
they made their first high-speed internet connection through 
their own network. It took Niles Radio Communications and 
MuralNet half a day to install the network equipment on the rim 
of the Grand Canyon. It provides signal to the whole town, with 
the village center having broadband speeds.
    The network was a success. So we applied for a permanent 
license, and this was the second hurdle, and it took a year to 
obtain. The delay was due to the FCC's efforts to utilize 
fallow EBS spectrum by changing the 2.5 gigahertz licensing 
rules. They proposed opening applications through a Tribal 
priority window and educational priority window, and then 
auctioning off what remained.
    I learned everything I could about the FCC policy from 
organizations like Schools, Health, and Libraries Broadband 
Coalition and the National EBS Association. Councilwoman 
Ophelia Watahomigie-Corliss and I met with decisionmakers in 
DC, telling them of the success of our pilot. We wanted to let 
them know what was possible if 2.5 gigahertz spectrum became 
available to other Tribal nations.
    Last week, the FCC announced that there will be a 90-day 
outreach period, a 60-day Tribal priority window, and then an 
immediate auction. Having a Tribal priority window is 
tremendous, but its impact will be stunted because the window 
is too short. It took 5 months for the Havasupai Tribe to 
assess the impact of a high-speed internet network on their way 
of life and decide to move forward. Other Tribal nations 
learned from their example and are now working with us to build 
their own networks. If Tribal party windows were a year long 
with rolling application approvals, the first wave of 
applicants would inspire a second, much bigger wave.
    Now the Havasupai want broadband coverage for the whole 
village. They want emergency communications throughout their 
canyon, an online charter high school, and telemedicine for a 
new clinic. MuralNet already has grants for this work. And now 
we have hit our third spectrum hurdle.
    Niles Radio Communications applied for a spectrum license 
in the 6 gigahertz band to make the necessary increases to 
microwave backhaul for Supai, but their application might be 
rejected because in 2015 another company expressed interest in 
the frequencies through the prior coordination notification 
process. Even though the other company did not apply for a 
license until Niles Radio made their interest public, their 
application has seniority. If Niles Radio application is 
rejected, we must wait 18 months to try again. That is a year 
and a half of schooling, telemedicine, and economic development 
lost.
    The rural digital divide is surmountable. Our LTE network 
toolkits, the infrastructure we erect, and the skills of our 
Tribal community partners that they build will make 5G upgrades 
easy. Spectrum acquisition has been our biggest issue. And as 
you make new rules to encourage 5G and make current wireless 
internet faster, please do not create policies that make it 
harder for Tribal nations to build their first networks and 
connect their people for the first time to this vital resource.
    I will be honored to address any questions the committee 
has, and thank you for your time.
    [The prepared statement of Ms. Triggs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Ms. Triggs.
    Mr. Donovan, you are recognized for 5 minutes.

                    STATEMENT OF TIM DONOVAN

    Mr. Donovan. Chairman Doyle, Ranking Member Latta, and 
members of the subcommittee, thank you for the opportunity to 
testify about how to best use finite, taxpayer-owned spectrum 
resources to support ubiquitous wireless service across the 
United States.
    CCA is the Nation's leading association for competitive 
wireless providers, representing carrier members ranging from 
small, rural providers serving fewer than 5,000 customers to 
regional and nationwide providers serving millions, as well as 
vendors and suppliers that provide products and services 
throughout the wireless communications ecosystem.
    This hearing is timely. Our future is, indeed, wireless. 
There are now more wireless connections than people in the 
United States. The National Center for Health Statistics 
reports that over half of all adults live in wireless-only 
households. What's more, the share of adults that primarily 
rely on a smartphone to access the internet has nearly doubled 
since 2013.
    While Americans continue to cut the cord, today wireless 
services power so much more than voice calls. Mobile 
connections power new technologies and improve quality of life 
across the United States. These services rely on a tremendous 
and increasing amount of wireless data, with no signs of 
slowing down.
    5G will supercharge these services and enable new services, 
some not yet even imagined. To make this future a reality, all 
carriers must have meaningful opportunity to access sufficient 
spectrum. And while the potential of 5G is exciting, without 
the right spectrum policies in place to make spectrum available 
for competitive carriers to serve rural areas, rural America 
will be left behind.
    Congress has established several guiding policies to foster 
fair and transparent opportunities for all carriers to access 
spectrum on a level playing field. Policymakers should continue 
to support these policies.
    One, spectrum must be made available in sufficiently small 
license size, while respecting technological use cases and 
power levels, to ensure that competitive carriers that serve 
rural areas have a true, meaningful opportunity to gain access.
    Two, standards within spectrum bands must be interoperable 
to support roaming and viable equipment ecosystems.
    Three, enough spectrum must be made available to support 
competition as bands are brought to market.
    And four, auctions should be designed with incentives for 
small entities and to serve rural and Tribal areas, and 
designed to avoid unnecessarily complex and unpredictable 
processes.
    These policies should apply to spectrum allocated for 
wireless use in low-, mid-, and high-frequency bands. 
Greenfield opportunities do not exist in the frequencies best 
suited to support our wireless future, so we must make all 
efforts to reallocate spectrum from inefficient users.
    The SPECTRUM NOW Act may unlock new opportunities through 
smart policies to support research and development. CCA thanks 
Representatives Matsui and Guthrie for introducing this bill 
and supports its consideration.
    While low-band spectrum provides a strong foundation for 
wireless service with vast coverage, and high-band spectrum 
promises blistering speeds and capacity, mid-band spectrum 
balances both characteristics. That is why competitive carriers 
have prioritized ways to access additional mid-band spectrum, 
particularly to support expanded buildout and Next Generation 
services in less sparsely populated areas.
    There are many steps being taken or under consideration 
regarding mid-band spectrum. We heard about many of them on the 
first panel, including the 1675 proceeding, the upcoming 3.5 
auction, and last week's FCC order on 2.5. These should all be 
pursued.
    But the C-band presents a unique and immediate opportunity 
to reallocate a substantial portion of mid-band airwaves for 
wireless use. We should seize the opportunity for this 500 
megahertz slide of mid-band spectrum with important 
foundational principles in place:
    Maximize the amount of spectrum made available for wireless 
use;
    Implement a transparent, reliable assignment process that 
ensures meaningful opportunities for all carriers to access 
spectrum;
    Make spectrum available for wireless use as efficiently and 
timely as possible;
    And ensure that the proceeds of selling licenses to use 
this taxpayer-owned resource benefit taxpayers, with profits 
flowing to the U.S. Treasury or used to benefit the American 
public, as directed by Congress.
    CCA recently filed a joint compromise plan to meet these 
goals with substantial benefits for rural America, including 
expanded wireless and wire line broadband services that merit 
strong consideration from Congress and the FCC.
    We are also pleased to hear, Chairman Doyle, your work with 
Congresswoman Matsui to advance continued focus on these 
issues.
    In closing, only a comprehensive, holistic approach to 
spectrum policy will ensure that Americans in all corners of 
the United States reap the benefits that stem from Next 
Generation wireless broadband networks and technologies. All 
carriers require equitable access to spectrum resources, or 
Americans throughout the Nation will miss out on a massive 
opportunity for economic growth, job creation, and worldwide 
leadership across industries.
    Thank you for your leadership on these critical issues, and 
I would welcome any questions you may have.
    [The prepared statement of Mr. Donovan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Donovan.
    Mr. Bergmann, you are recognized for 5 minutes.

                  STATEMENT OF SCOTT BERGMANN

    Mr. Bergmann. Thank you, Chairman Doyle, Ranking Member 
Latta, and members of the subcommittee. I am Scott Bergmann, 
and on behalf of CTIA and the wireless industry, I want to 
thank you for your leadership in making spectrum available for 
5G. Your continued focus on crafting smart spectrum policies 
will be critical to our 5G future.
    Thanks to this committee's past efforts, we lead the world 
in initial 5G deployments. U.S. wireless providers were the 
first to deploy 5G last year, and by year end we will have 
launched 92 deployments across the country, nearly double that 
of any other nation.
    With the right spectrum resources, the U.S. wireless 
industry is ready to invest $275 billion, creating 3 million 
new jobs and adding $500 billion to our economy. But the full 
societal and economic impact will likely be even greater. U.S. 
entrepreneurs will leverage new 5G platforms to lead the world 
in tomorrow's advancements in healthcare, public safety, 
transportation, robotics, the environment, and every other key 
sector.
    But every benefit we expect to reap from 5G is predicated 
on the availability of spectrum. It is the building block of 
everything we do. We led the world in 4G and benefited from 
economic growth, jobs, and the emergence of the wireless 
ecosystem. Not surprisingly, other nations saw those benefits 
and have been aggressive in identifying spectrum for 5G.
    Fortunately, we know the roadmap for success, and all of 
the above spectrum policy focused on low-, mid-, and high-band 
spectrum. Our mobile wireless networks will need access to all 
three types of spectrum. They are the three-legged stool that 
we need for 5G.
    Low-band provides great coverage. It goes for miles. It is 
what your wireless service relies on today. High-band has huge 
capacity, but it travels short distances. It will be key for 
bandwidth-intensive applications. And mid-band is the sweet 
spot. It offers both capacity and coverage. It can handle the 
increased traffic that 5G will bring, and it can travel 
distances. It will be a workhorse for 5G. To deliver all of the 
benefits and services that 5G will offer, we need to have a 
healthy mix of all three.
    Our leadership in 5G today is thanks to the wise spectrum 
policies adopted over the past several years. We applaud 
Congress and the FCC for pushing low-band spectrum into the 
market through the broadcast incentive auction. Providers are 
busy building out this spectrum today. And to their credit, the 
FCC just successfully concluded the second of three planned 
high-band auctions scheduled for this year. As a result, we are 
leading the world in high-band availability, but other nations 
are scrambling to catch up.
    To keep our 5G leadership, mid-band will be the key. The 
challenge is that we are behind globally today. Our key rivals 
will have four times the amount of licensed mid-band spectrum 
above 3 gigahertz available by 2020. Chairman Pai and the FCC 
deserve credit for working hard to catch up. The FCC recently 
finalized the rules for the licensed portion of the 3.5 
gigahertz band, and we are eager for the FCC to resolve its C-
band proceeding, which has the potential to make available 
hundreds of megahertz of mid-band spectrum.
    The administration is also reviewing the 3.45 gigahertz 
band, part of the larger 3100 to 3550 band which Congress 
identified last year in the MOBILE NOW Act. We appreciate this 
committee's continued focus on efficient use of spectrum by 
government users, including the recently introduced SPECTRUM 
NOW Act. The opportunities for mid-band are there. It is now 
about execution. We need to free up hundreds of megahertz of 
mid-band, and fast.
    Even as you focus on these national priorities, we must 
maintain our leadership on the international stage for the 2019 
World Radiocommunication Conference. This includes events in 5G 
in the 2400 gigahertz band, which the FCC just auctioned for 
over $2 billion.
    We urge Congress to ensure that our U.S. positions 
reinforce our 5G leadership and do not undermine access to 
critical bands that have already been made available for 5G. We 
must be unified across government and respect the interagency 
process to free up morespectrum.
    Mr. Chairman, we look forward to working with you and the 
committee to craft spectrum policies that meet the needs of 
wireless users to rapidly address our Nation's mid-band needs 
and to provide a consistent pipeline of high-, mid-, and low-
band spectrum.
    Thank you for the opportunity to testify today, and I 
welcome your questions.
     [The prepared statement of Mr. Bergmann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Bergmann.
    Mr. Pitsch, you have 5 minutes.

                   STATEMENT OF PETER PITSCH

    Mr. Pitsch. Thank you, Mr. Chairman. My name is Peter 
Pitsch. I am the executive vice president for government 
affairs for the C-Band Alliance, CBA.
    I would like to thank you, Mr. Chairman, and Ranking Member 
Latta and the other members of the subcommittee for this 
opportunity to explain the efforts of the C-band satellite 
operators and what they are doing to make mid-band spectrum 
available for 5G.
    The United States is at risk of falling behind in the 
global race to 5G. Countries like China, Korea, Japan, many 
others, have made more mid-band spectrum available to 5G than 
we have. That is a problem for U.S. 5G leadership and security.
    Mid-band spectrum is the Goldilocks band for 5G because it 
has the right balance of coverage and capacity, especially in 
rural America, and the portion of the band known as C-band is 
especially well-suited for 5G. But repurposing the C-band for 
5G is complicated.
    First, all the major television and radio networks--Fox, 
NBC, ESPN, NPR, and religious broadcasters--rely on C-band to 
deliver programming to nearly 120 million television and radio 
households.
    The other complication is that each of the operating 
satellite companies has a nonexclusive right to use the full 
500 megahertz, which means that no one satellite operator alone 
can make that spectrum available for 5G.
    To solve these challenges, the four satellite companies 
that are providing C-band services in the continental United 
States have formed a consortium called the C-Band Alliance, and 
we have developed a proposal to assign and clear 5G spectrum as 
soon as possible.
    Here is how it will work: The C-band will clear the lower 
200 megahertz of the C-band--that is 40 percent of the 
spectrum--for 5G within 36 months. This could lead, should lead 
to spectrum assignments in the first half of 2020, years ahead 
of the alternative approaches. Some economists have calculated 
that, for each year the rollout of 5G is delayed, the U.S. 
economy would lose $50 billion in GDP. Making this spectrum 
available quickly will also foster a more secure 5G vendor 
ecosystem.
    The C-band proposal that we put forward is the only 
proposal that fully protects existing satellite services. We 
have the expertise and knowhow to clear the lower 200 
megahertz. We will assume substantial costs to make that 
spectrum available, and the fiber alternatives are not timely 
and suitable.
    I want to move to the transparency of our plan. We have 
publicly filed our auction design, customer commitments, band 
plan, transition implementation process, and other key aspects 
of our plan. The FCC will be involved throughout this process. 
We will be fully accountable. The FCC will be involved, for 
example, in approving the auction design and issuing licenses, 
and as one of the Members raised, determining buildout 
requirements, and so on.
    Finally, our proposal is fair. CBA member companies have 
committed to delivering a significant portion of the auction 
proceeds to the U.S. Government. We are also committed to 
working with the Congress and this committee to assure that 
that goal is met. The CBA members are undertaking substantial 
risk and expense to clear 40 percent of their spectrum and 
break the 5G logjam to make this spectrum available years ahead 
of the alternatives. In short, our proposal is the fastest way 
to repurpose C-band spectrum for near-term benefits for U.S. 
consumers, workers, businesses, and U.S. security.
    We look forward to working with you, Mr. Chairman.
    [The prepared statement of Mr. Pitsch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Pitsch.
    That concludes our opening statements from our second 
witness panel. We will now move to Member questions, and I will 
start by recognizing myself for 5 minutes.
    Mr. Donovan, the C-Band Alliance has proposed an entirely 
private transaction in the C-band that would make 180 megahertz 
available for mobile broadband. Do you think this is enough 
spectrum to meet our Nation's mid-band needs for 5G, and what 
would be the risks of not providing enough spectrum, if you 
don't think it is enough?
    Mr. Donovan. Thank you, Mr. Chairman.
    So we have heard from our carriers that you really in this 
spectrum need a minimum of 60 megahertz or so--more is better--
to provide a meaningful service on that. If you only free up 
180 megahertz for wireless use, that is a maximum of three 
licenses. If we want to talk about putting spectrum in the 
hands of competitors that serve rural areas, that is not enough 
to go around. So, we need to be able to free up more spectrum 
to make sure that there is a competitive marketplace for more 
than three licenses, to make sure that there is enough spectrum 
available for those to serve rural areas.
    Mr. Doyle. Thank you.
    Let me ask you this, Mr. Donovan. One of the subcommittee's 
priorities is to help facilitate the deployment of rural 
broadband and close the digital divide. Would a private 
transaction by the C-Band Alliance, even if it included a 
donation to the Treasury, help your members deploy broadband in 
rural America?
    Mr. Donovan. I think we don't have the transparency into 
the private transaction to have that type of assurance. The 
plan that we have put forward on the record not only frees up 
additional spectrum but pushes fiber further out into rural 
areas to support expanded fiber broadband access as well as 
backhaul for 5G, while also freeing up additional spectrum for 
5G services.
    Mr. Doyle. Mr. Calabrese, how would you respond to that 
question?
    Mr. Calabrese. Yes, we actually vastly prefer the proposal 
that has been put forward by CCA and the smaller cable systems 
and Charter, for the reasons, I think most of the reasons that 
Tim mentioned, that there is return back to the public. It 
would be a public auction that would be more transparent and 
fair. It seems to have a side benefit of pushing fiber out, 
although legislation would be preferable so that that return to 
the public could be designated specifically for rural and 
underserved areas, which it wouldn't be if it was simply a 
public auction. And we also worry a bit, if the FCC went ahead 
with this proposal, it sort of has a blank check for incentive 
payments to satellite companies that never paid spectrum, which 
completely breaks off precedent and is not necessary.
    Mr. Doyle. Mr. Calabrese, what are the potential benefits 
of unlicensed or coordinated access to spectrum in any parts of 
the C-band that are not licensed for mobile use or where mobile 
broadband is not deployed?
    Mr. Calabrese. Right. That is a very much overlooked 
portion of the FCC's Notice of Rulemaking. They also propose 
that in whatever portion, well, the upper portion of the band 
that remains in service for fixed satellite use, that you can 
open that for coordinated shared access, for high-capacity 
point-to-multiple-point in rural areas, very much the same way 
a spectrum access system will be used in CBRS to protect the 
Navy.
    Tech companies just put out an engineering study last week 
that shows why this is the case. And, in fact, you could 
actually authorize sharing across the entire band using a 
database mechanism just like you do in the adjacent CBRS.
     Mr. Doyle. Thank you.
    Mr. Pitsch, in your testimony you note that your proposal 
for the disposition of C-band includes asking spectrum holders 
that relinquish spectrum to make voluntary payments to the 
Treasury. How do you propose that transaction would occur, and 
what is the legal authority for that type of donation?
    Mr. Pitsch. Thank you, Mr. Chairman, for the question.
    We have looked at the legality, and we are confident it is 
legal for private parties to make contributions to the 
Treasury. It is also the case that the Commission could choose 
to condition parts of the decision on our making such a 
contribution. We are confident that would be legal.
    Mr. Doyle. Has such a donation to the FCC ever occurred 
before, to your knowledge?
    Mr. Pitsch. Not specifically like that. However, it is the 
case that parties in settlements have made contributions to 
particular groups. I can think of a railroad situation that 
made a contribution that was approved by the FCC to a Tribal 
authority. Of course, a recent merger proponent has promised to 
make voluntary contributions to the Treasury if they do not 
live up to certain commitments regarding broadband deployment, 
and so on. So we don't think that the legality here is a 
problem.
    Mr. Doyle. Does the Commission have the authority to 
enforce this?
    Mr. Pitsch. It does if it, in fact, conditions our license 
on our following through. Let me assure you there will not be a 
problem in following through by the C-band companies.
    Mr. Doyle. Thank you.
    I see my time is expired, and I yield to my good friend Mr. 
Latta.
    Mr. Latta. Well, thank you, Mr. Chairman.
    And again, thanks to our panel for being with us and all 
your great information.
    Again, there is certainly no shortage of discussion topics 
when it comes to spectrum. One that factored heavily in the 
testimony of some of our witnesses is C-band and the different 
proposals for harnessing this prime mid-band real estate for 
5G.
    I also appreciate the chairman's invitation to work 
together on this and also along with Ms. Matsui. It is my hope 
that we can all engage in a very productive conversation toward 
a solution that could address some other priorities while it 
turbocharges our transition to 5G.
    As the chairman just mentioned in his questions, one of the 
biggest sticking points in the current discussion is the 
mechanism of the potential sale. Everyone agrees the spectrum 
should be auctioned, but the question is whether that auction 
should be handled by the private sector with appropriate 
oversight or by the Federal Government.
    I will start my question with you, Mr. Pitsch, if I may, 
but will ask several of the witnesses as well. What are your 
thoughts on the pros and cons of each approach on a private or 
an FCC auction?
    Mr. Pitsch. Thank you for that question, Congressman Latta.
    First off, as I indicated, our approach would assign 
spectrum early next year. I think if you look at all the 
alternatives with a public auction in the future and look at 
the track record for how long it takes for the Commission to go 
through a public auction process, or through this legislation, 
we are talking years later.
    The impact on 5G could be crucial. China, Korea, Japan, the 
UK, Germany, Spain, Italy, Sweden, the Ukraine, Qatar, 
Australia all have much more spectrum available or will have 
before the end of 2020.
    This proposal balances the interests of the incumbents. 
There is discussion about what happens and could we do more. It 
is important to realize that, on some of those fiber-based 
proposals, Disney, Fox, Discovery, CBS, Viacom have all said 
they do not think that that fiber solution is appropriate. 
Under our approach, the members of this committee will be able 
to look at one entity who will be fully accountable for 
clearing spectrum quickly for 5G and make sure that all of 
those viewers and listeners at home are getting ESPN and NPR.
    Mr. Latta. OK. Thank you.
    Mr. Calabrese? And if I could, if you would do it in about 
30 seconds, I would appreciate that.
    Mr. Calabrese. I think the main advantage to the CBA 
proposal is that the satellite operators could be far more 
cooperative with the process if they are receiving billions and 
billions of dollars. The downsize, of course, is that the 
public would lose that revenue, which could be far better used, 
as I said, for rural and underserved infrastructure. It is also 
just a terrible precedent to----
    Mr. Doyle. Mr. Calabrese, can you pull your microphone up a 
little closer to you?
    Mr. Calabrese. Oh, yes.
    And then it would also be, we believe, just a terrible 
precedent to set because we are moving--as Julian Knapp said 
earlier--we are moving into an era where all the new spectrum 
we make available is going to be in bands that are in use, but 
underutilized. And so, for sharing, for consolidating, as we 
did with the broadcasters earlier, and we should do here now, 
we can't be paying off unnecessarily these incumbents. The 
Commission has the authority to consolidate them, modify 
licenses. We should take advantage of that.
    Mr. Latta. Mr. Bergmann?
    Mr. Bergmann. Thank you, Congressman, for the question.
    And I think you are focused on exactly the right band. We 
recognize that this has exactly those criteria that I talked 
about earlier, the balance of coverage and capacity. So this is 
exactly the right place to focus.
    Our members have different perspectives on the question of 
whether it should be a public auction or a private auction, but 
I think what they all agree on is we need to find opportunities 
for hundreds of megahertz of mid-band spectrum. We know that a 
recent report suggested that bringing 400 megahertz of mid-band 
spectrum to market would lead to a $274 billion increase to the 
GDP. So this is exactly the right place to be focused.
    Mr. Latta. Mr. Donovan?
    Mr. Donovan. So there is a track record of success with FCC 
auctions having raised over $120 billion through mechanisms 
that carriers, large and small, have comfortable experience 
with, know how to navigate, know how to place bids, and know 
how to participate.
    Mr. Latta. OK. Well, thank you very much, Mr. Chairman. My 
time is expired, but I will ask the last question be submitted 
for the witnesses. Thank you very much, and I yield back.
    Mr. Doyle. Thank you, Mr. Latta. OK, Mr. McNerney, you have 
5 minutes.
    Mr. McNerney. Well, I thank the chairman and I thank the 
witnesses. It is a great hearing. It is a great subject, and 
you are giving us a fairly diverse viewpoint on this. So, I 
appreciate that very much.
    I care deeply about the United States leading in 5G and 
maximizing its benefits. Mr. Calabrese, how then is the 5G 
ecosystem likely to impact the amount of mobile traffic that 
will be offloaded to Wi-Fi?
    Mr. Calabrese. Well, it is going to increase that 
tremendously. Cisco has a continuous survey they do of internet 
traffic around the world, the Visual Networking Index, and they 
are projecting a huge increase because 5G will enable 
applications that are far more bandwidth intense. And every 
time that happens, the typical consumer wants to use those same 
applications. In fact, 80 percent of use is indoors. And so, 
indoors they will use Wi-Fi. And so they project a spike in Wi-
Fi use, if consumers are going to get the benefit of 5G 
everywhere.
    Mr. McNerney. So what would happen to U.S. leadership in 5G 
if we don't make more unlicensed spectrum available?
    Mr. Calabrese. Well, we have always been ahead. I mean, we 
invented unlicensed spectrum in Wi-Fi and all these great 
innovations. And we will, in turn, fall behind. And also, our 
average consumers will not have the ability to use these great, 
new applications nearly as much they would otherwise.
    Mr. McNerney. Great. In your written testimony, you 
mentioned that relocating the 5.9 band to unlicensed spectrum 
would create a very high-capacity Wi-Fi super-band. What kind 
of benefits would that lead to in our communities?
    Mr. Calabrese. Yes, so that is very important. The 
Commission set out, you may recall, in 2014 to clear 750 
contiguous megahertz in 5 gigahertz. That didn't work out 
because of military radar, because we are logjammed on 5.9. So 
what you can do is, if you can get access to that 5.9 band, you 
could have as many as, I think it is six or seven contiguous 
160-megahertz channels. That is gigabit Wi-Fi for many 
different users. So, that is great for businesses, for families 
in congested areas. It really becomes a Wi-Fi superhighway.
    Mr. McNerney. And so that will help close the digital 
divide as well?
    Mr. Calabrese. Yes, it sure will. Low-income people and 
communities of color depend far more on Wi-Fi than more 
affluent folks do, often because it is a primary internet 
connection. And so it is going to be important that we have 
that combination of getting fiber deep into communities and 
also having plenty of Wi-Fi access, including in schools and 
libraries and everywhere.
    Mr. McNerney. Well, thank you.
    You know, spectrum is limited, and the demand for spectrum 
continues to grow. So what can we do to incent the more 
efficient use of spectrum? In other words, packing more 
information into existing real estate, what is the best way to 
encourage technology to be developed along those lines?
    Mr. Calabrese. Well, I think the Commission--we see that 
with Citizens Band Radio Service, with CBRS. If you target 
these underutilized bands and allow for dynamic spectrum 
sharing, you really set off a whole wave of innovation for more 
efficient spectrum sharing and use. So we are going to be 
seeing that in CBRS. If we open all these 6 gigahertz band 
segments to unlicensed use, you will see even more of it. So 
the spectrum-sharing technologies, even DoD now wants to 
develop more of that, and I think that is all just for the 
good.
    Mr. Pitsch. Congressman McNerney, could I answer your 
question just briefly?
    Mr. McNerney. Briefly.
    Mr. Pitsch. The C-Band Alliance is going to create the 
capacity on its remaining 60 megahertz by substituting capital. 
We are going to buy billions of dollars' worth of satellites 
and install filters, and that is going to free up 40 percent of 
the spectrum for 5G use.
    Mr. McNerney. OK. Mr. Calabrese, the chairman mentioned his 
concern about the enforceability of the spectrum deal that Mr. 
Pitsch was referring to. What do you think about that in terms 
of enforceability of the payment to the Federal Government?
    Mr. Calabrese. I don't see how they can really because it 
is beyond, it is certainly beyond the Commission's authority to 
require. The Commission is clearly--it is clear that there are 
competing applications here for licenses. That puts them within 
Section 309(j). That requires an auction. 309(j)(8) requires 
that the revenue, every bit of revenue to the Treasury. This 
won't be eligible as an incentive auction. So I just don't see 
it.
    Mr. Doyle. Thank you.
    Let me just say that we already started our first of a 
series of three votes. I think we have 9 minutes left. We have 
checked with the floor. They are going to give us a little bit 
of extra time.
    But if the remaining three Members can try to be brief with 
their comments, I think we can get all your questions in and 
not have to come back and make the panel sit here for 45 
minutes or so.
    So, Mr. Johnson, you are up.
    Mr. Johnson. Thank you, Mr. Chairman. And one quick 
administrative task. I request to enter into the record this 
letter from Chairman Pai to the ranking member on Science, 
Space, and Technology dealing with the recently completed 24 
gigahertz auction.
    Mr. Doyle. Without objection, so ordered.
    Mr. Johnson. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Johnson. Mr. Donovan, I know that there are a lot of 
different proposals floating around about how to reallocate C-
band spectrum for 5G wireless services. I hear all kinds of 
numbers discussed about how much spectrum can be freed up in 
the C-band for 5G use. Some proposals talk about freeing up 200 
megahertz of spectrum. Other proposals say that close to 400 
megahertz of spectrum can be made available. Still other 
proposals suggest that the spectrum should be made available in 
different stages. What is so important about maximizing the 
amount of C-band spectrum used for 5G? Isn't there other 
spectrum being made available for 5G use?
    Mr. Donovan. Thank you for the question. It makes me think 
of, Why did Willie Sutton rob banks? That is where the money 
is.
    As we are looking at 5G spectrum, where is the most 
spectrum that we can have? It is in the C-band. And that is why 
competitive carriers are so focused on it.
    Two of your questions, in part--so, it is important to make 
it available all at once, so that an equipment ecosystem 
develops and all carriers have an opportunity to access the 
spectrum without any carrier getting elite in the market or 
disrupting economies of scale for smaller carriers to be able 
to get access to spectrum.
    And it is important to make a lot of it available. I really 
think we need to look at how we can use fiber resources to 
transition the end users. Our plan has the buy-in from the 
cables companies that provide the service to their customers. 
Even last month, the NBA signed a contract to put fiber to all 
their arenas, so that all of their content can go out in 10 ADP 
and they can have another 30 cameras in each arena. We see a 
lot of benefit to that, and in the process, we can build fiber 
instead of buying filters. We can free up additional spectrum 
while advancing our 5G interests.
    Mr. Johnson. OK. I keep hearing this back-and-forth debate 
about C-band, and I am wondering how these plans will 
accelerate the deployment of desperately needed broadband to 
rural America. So how will your C-band plan that was recently 
filed with the FCC benefit rural America?
    Mr. Donovan. There are many benefits to rural America from 
the plan that we recently filed with Charter and with ACA 
Connects. So it not only frees up additional spectrum for 5G 
use, it incents building out the fiber that can be used not 
only to transition that programming but also to serve as 
backhaul for that 5G service, while also freeing up additional 
revenue to either go to the Treasury or to be used as directed 
by Congress. We have heard a lot of talk about using auctions 
to support important policies like expanding rural broadband 
access, and we support those.
    Mr. Johnson. OK. Mr. Donovan, continuing with you, and also 
Ms. Triggs, what role can the 2.5 gigahertz band play in 
expanding broadband to rural America?
    Mr. Donovan. A lot of the 2.5 that will be made available 
will be in these rural areas. So we do see it as one of the 
all-the-above options to help expand access in rural areas.
    Mr. Johnson. OK.
    Ms. Triggs. The same. Fifty-one percent of EBS spectrum is 
available in the U.S., and most of that is west of the 
Mississippi, which overlaps with a lot of Tribal lands. So it 
is something that they could right away turn around and start 
building. Builds are fast, builds are cheap. We are talking 
$15,000 and half a day of labor. That got things up, going for 
the Havasupai Tribe.
    What is stopping us, actually, is the current licenses that 
aren't being used. The original licensed were a 35-mile radii. 
And what ends up happening is, any of our partners that are 
within 30 miles of a major metropolitan center have all of the 
spectrum allocated, but none of it being used.
    I will go along with the spectrum analyzer and I will see 
that 2.4, huge spikes. Lots of people from outside of the 
reservation are beaming in on unlicensed spectrum and offering 
internet for $40 a month. You see the signs everywhere. 2.5, it 
is a straight line.
    So, if we can find some way to incentivize those people who 
have the spectrum and get them to share it, that is what I am 
looking for. And that would be huge for a lot of, about half of 
our partners.
    Mr. Johnson. OK. All right.
    Thank you. Mr. Chairman, I yield back.
    Mr. Doyle. Thank you very much.
    Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you, Mr. Chairman.
    As has been discussed here today, C-band offers perhaps the 
best opportunity to repurpose a potential coordinated range 
spectrum band for Next Generation terrestrial broadband 
networks. This band has propagation characteristics that make 
it ideal for reliable satellite distribution and particularly 
valuable for 5G mobile networks.
    My draft WIN 5G Act proposes to ensure the spectrum is 
reallocated rapidly by building capacity within the C-band, 
incentivizing a clearing target, and maximizes the amount of 
spectrum made available for terrestrial services, and requiring 
a demonstration that incumbent users will continue to receive 
comparable service. More fundamentally, my proposal reflects 
the three pillars necessary to this reallocation: repurposing 
the maximum amount of spectrum possible, protecting current 
users, and ensuring an efficient clearing process.
    Mr. Donovan, do you agree that developing consensus and 
compromise around these three pillars will be key to moving 
forward?
    Mr. Donovan. Yes, we do. We agree with those three pillars. 
We appreciate ongoing discussions with C-Band Alliance and 
other stakeholders over how we can do this, and support the 
idea to incent freeing up as much spectrum as possible.
    Ms. Matsui. OK. One tenet of the C-Band Alliance proposal 
is to tag the entire 3.7 to 4.2 gigahertz range for our mobile 
and wireless use. As Mr. Pitsch notes in his testimony, C-band 
satellite operators have equal overlapping, nonexclusive rights 
to transmit across the entire 500-megahertz range. And I 
certainly appreciate the CBA's proposal to entice all eligible 
operators to join the Alliance.
    But I remain concerned with the fact that an FCC action 
taken to allow a portion of the satellite operators to 
financially benefit from any sale, while another portion with 
the exact same market rights does not benefit, will result in 
the need for a settlement, potentially tying our spectrum 
policy and 5G deployment up in that process. My WIN 5G Act 
attempts to address this holdup problem by creating a process 
to designate satellite operators as a transition facilitator, 
later directing the FCC to modify the protection rights of the 
satellite operators and to clear spectrum pursuant to statute.
    Mr. Donovan and Mr. Pitsch, how could the WIN 5G Act 
provide the additional clarity necessary to resolve the holdout 
issue?
    Mr. Donovan?
    Mr. Donovan. Thank you.
    So it would certainly address some of the litigation risk 
that we share, and we have heard other issues raised this 
afternoon that address some of the litigation risk. It also 
does provide those incentives for a greater incentive payment 
to free up additional parts of the band.
    Ms. Matsui. OK. Mr. Pitsch?
    Mr. Pitsch. Congresswoman Matsui, we recognize the goals 
and, as you know, we are closely to comment on your 
legislation. However, we continue to believe that the market-
based approach that the FCC proposed will get the spectrum in 
the market much more quickly and strike the optimal balance 
between keeping customers whole and getting 5G going. We will 
have assignments in the first half of 2020. And, as expeditious 
as your deadlines are, Congresswoman Matsui, that would be 
substantially later.
    I just want to emphasize one point, because something was 
made of it. The foreign companies here purchased their 
antecedent American companies, PanAmSat and GE Americom. Not 
surprisingly, most of their employees, or many of their 
employees, are U.S. taxpayers, more than any other country. But 
more importantly, for decades they have been providing an 
integral service for the delivery of video and radio to nearly 
120 million households. So----
    Ms. Matsui. Thank you, Mr. Pitsch. I have some other 
questions here.
    Mr. Pitsch. Sure.
    Ms. Matsui. Last month, Congressman Guthrie and I, along 
with Senators Wicker and Schatz, introduced the SPECTRUM NOW 
Act. Now, specifically, the framework in the SPECTRUM NOW Act 
could provide a pathway for NTIA and DoD to make an additional 
100 megahertz of spectrum available in the 3.4 gigahertz band. 
This language is also included in Title II of my WIN 5G Act.
    Mr. Donovan and Mr. Bergmann, what potential does a 3.4 
gigahertz band have in our effort to allocate additional mid-
band spectrum for wireless use? And do you support these 
provisions?
    I have got 35 seconds left. Quickly.
    Mr. Donovan. Yes, we support, and this falls into all-the-
above options for mid-band spectrum. We need to look seriously 
at all of them.
    Ms. Matsui. OK. Mr. Bergmann?
    Mr. Bergmann. Congresswoman, I would say, yes, we support. 
We really appreciate your focus on this band. These three bands 
are all contiguous. We need as much as possible as fast as 
possible. And we really appreciate your focus on making sure 
that we drive efficiency out of government use of spectrum.
     Ms. Matsui. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Doyle. Thank you.
    Mr. Walberg, you are up.
    Mr. Walberg. Thank you, Mr. Chairman.
    And before I begin my questions, I would like to make an 
observation that we have an excellent and diverse set of 
panelists here--and thanks for putting that together--
epresenting a wide swath of wireless users. But I also believe 
that, as we move forward, we should seek participation from the 
energy sector as well and their growing wireless needs. And 
representing the energy sector in my district, the largest 
energy district in the State, I think that is extremely 
important.
    Mr. Bergmann, yes or no--dealing with the time here--as 
NTIA and the FCC look to identify more spectrum and gain 
efficiencies through spectrum management, do you think Federal 
incumbents are doing enough to invest in their systems, to 
become more efficient with the spectrum we have given them?
    Mr. Bergmann. I think they are working hard to try to 
perform very important missions, but the challenge is always 
lack of incentives. And so, we really appreciate this 
committee's focus on creating more incentives for efficiency 
out of those government users.
    Mr. Walberg. So, is that yes and no?
    Mr. Bergmann. I think that is there are real win-win 
opportunities to make Federal spectrum available for commercial 
use.
    Mr. Walberg. OK. Given the growing trend of executive 
branch agencies other than the NTIA playing a more outsized 
role in spectrum policy over parochial issues, Mr. Bergmann, 
how do you suggest we promote a more unified, organized, and 
efficient spectrum policy?
    Mr. Bergmann. Well, thank you, Congressman, for the 
question.
    I certainly think oversight hearings like this are 
tremendously important. There is also the development of a 
National Spectrum Strategy that the administration is working 
on. We think that there are real opportunities for both this 
committee and the administration to work together to put 
forward a schedule and create a consistent pipeline of 
spectrums, so that we can make sure that we are getting each of 
those elements that we talked about earlier, low-, mid-, and 
high-band spectrum. So, these are real opportunities to set a 
path forward to bring that spectrum to market for the industry.
    Mr. Walberg. Thank you.
    Mr. Donovan and Mr. Pitsch, rural America--and I represent 
rural America in my district significantly--not only should it 
not get left behind, but rural America also benefits from 5G 
and Next Generation technologies. They need to experience that 
and know that they are getting it.
    We know spectrum policy plays a big role here, but carriers 
need access to spectrum first. And so, Mr. Donovan and then Mr. 
Pitsch, what would be the regulatory burden to participate in 
the respective proposals on C-band for rural carriers in terms 
of complexity, cost, process, et cetera?
    Mr. Donovan?
    Mr. Donovan. Thank you for the question.
    At one of our recent trade shows, the CTO for a rural 
company was asked the question of, what does rural America want 
from 5G? And the answer is simple: The same thing as everyone 
else, and they don't want to have to wait for it.
    So, it is really important that the carriers that are 
building in rural areas are able to get access to the spectrum 
that is going to be used to support that 5G future. There is an 
opportunity cost to participating in any auction. So it is 
important to make sure that we are freeing up enough spectrum 
to give these carriers confidence to go out, obtain the 
financing, do their necessary legwork ahead of time, and 
participate in the process, with a meaningful opportunity that, 
if they do those things, they have a chance to win spectrum. So 
that is something that we have had through FCC auctions in the 
past. If there is enough spectrum brought to market for a 
future FCC auction, that will be the case in the future. We do 
not yet have assurances on how CCA members would participate in 
another process, but we will continue those discussions.
    Mr. Walberg. Thank you.
    Mr. Pitsch?
    Mr. Pitsch. Thank you for the question.
    We believe our approach is very relevant and very helpful 
to rural America. First off, our spectrum in the first 3 years 
will be available nationwide. Assignments will be known early 
next year. Spectrum will be available nationwide.
    We came up with a band plan that includes 9 times 20 
megahertz licenses. There will be many opportunities for rural 
entities, rural businesses, to compete.
    We are committed to it. The FCC will determine whether or 
not there are benchmarks, milestones, buildout requirements, 
and so. We are committed to working with all of those.
    So, then, the last thing I will say is that our approach, 
unlike some of the fiber proposals, will assure that rural 
households are able to get ESPN and NPR all through this 
process.
    Mr. Walberg. OK. Thank you.
    I yield back.
    Mr. Doyle. OK. Mr. Cardenas, it is up to you to get us down 
to votes.
    Mr. Cardenas. All right. Yes, thank you, Mr. Chairman. I 
will paraphrase down to my most pertinent questions and points.
    There are a lot of proposals out there on how best to 
reallocate the spectrum. Mr. Donovan and Mr. Pitsch, please 
help explain the key differences between your plans by 
providing very brief responses to each of the following 
questions:
    How much spectrum are you proposing to reallocate? Mr. 
Donovan, and then Mr. Pitsch.
    Mr. Donovan. At least 370 megahertz.
    Mr. Pitsch. Two hundred megahertz within 3 years. As much 
as available after that, where efficient.
    Mr. Cardenas. OK. A phase-in.
    How much will it take until this spectrum is available to 
its new owners?
    Mr. Donovan. The first set of spectrum within 18 months. 
Additional, that is within 3 years, with the most remote areas 
within 5 years.
    Mr. Pitsch. This is a key difference. Assignments will be 
known in the first half of 2020, which means people can contact 
their vendors right away.
    Mr. Cardenas. OK. Thank you.
    Does your proposal depend on an FCC-led auction or a 
private sale?
    Mr. Donovan. FCC auction.
    Mr. Pitsch. Private sale overseen by the FCC.
    Mr. Cardenas. Will your plan provide proceeds to the U.S. 
Treasury?
    Mr. Donovan. Yes.
    Mr. Pitsch. Yes.
    Mr. Cardenas. OK. Does your plan include any investments in 
infrastructure?
    Mr. Donovan. Yes, our plan will also support deploying 
additional fiber resources in rural America.
    Mr. Pitsch. We are going to do what the FCC tells us to do 
on that. And Congress, obviously, can determine where those 
proceeds go.
    Mr. Cardenas. OK. Thank you for the confidence.
    The intersection of the energy and telecommunications 
sectors is only growing, and their importance to each other for 
recovery from natural disasters and other hazards is critical 
to our national security. It is important to have emergency 
communication networks open and functioning properly, and it is 
important for our infrastructure, as, for example, the electric 
sector uses for grid reliability. I think it is important that 
the FCC protect communications within our power grid.
    In addition to that, I understand that the 6 gigahertz band 
of spectrum used by energy and water utilities is being 
considered for unlicensed purposes. I think it is important 
that the FCC take a balanced approach to the reallocation of 
spectrum to ensure that critical communications are not 
disrupted.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Doyle. Thank you, Mr. Cardenas.
    Well, that concludes our hearing for today.
    I want to remind Members that, pursuant to committee rules, 
they have 10 business days to submit additional questions for 
the record to be answered by the witnesses who have appeared. I 
ask each witness to respond promptly to any such questions.
    The Chair also requests unanimous consent to enter the 
following documents into the record: an ex parte letter from T-
Mobile, a letter from ITS America, a report from CTIA, a 
statement from R Street, a letter from the Electric Water 
Utilities. Without objection, so ordered.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The T-Mobile letter with accompanying 31-page report and the R 
Street statement have been retained in committee files and also are 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109797.
---------------------------------------------------------------------------
    Mr. Doyle. At this time, the subcommittee is adjourned. 
Thank you.
    [Whereupon, at 1:57 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
